            Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the 6-month reporting period that ended September 30, 2000.

During this reporting period, we continued to work with GSA to identify sound
business management and operational improvements in the Agency’s
programs and operations. We issued a number of reports focusing on the
major management issues facing the Agency, including information systems
development, management controls, and physical security. We reported on
the escalating costs and time delays in the development of the Agency’s new
mission-critical financial management system, and urged GSA to implement
better controls over project development and to independently verify system
requirements and changes. We also reviewed controls over the proceeds
from over $40 million in surplus real property sales and found that
management needs to enforce controls to ensure that transactions are
properly recorded and that Government assets are properly protected. We
reported that GSA needs to do a better job of protecting against misuse of
Government fleet services charge cards. We also recommended
improvements in three separate GSA Services’ use of multiple award task
and delivery order contracts. In addition, we reported that, despite the
Federal Protective Service’s more active role in monitoring a security guard
contractor’s performance, the contractor is still largely non-compliant with
critical contract requirements. We encouraged Agency officials to explore
alternative contracting sources.

Working with the Department of Justice, we obtained over $33 million in a
settlement related to the supply of defective computer laptops to Government
agencies. This is our largest single case fraud recovery to date. In addition,
we identified over $338 million in financial recommendations on how funds
could be put to better use and in other program savings. We made
255 referrals for criminal prosecution, civil litigation, and administrative action.
Criminal cases originating from OIG referrals resulted in 23 successful
prosecutions. Savings achieved from management decisions on audit
financial recommendations, civil settlements, and investigative recoveries
totaled over $119 million.

I want to take this opportunity to thank the GSA Administrator, GSA’s senior
managers, and the Congress for their support. I also want to express my
appreciation for the accomplishments of all OIG employees and commend
them for their continued professionalism, dedication, and willingness to
accept new challenges.




WILLIAM R. BARTON
Inspector General
October 31, 2000
      Table of Contents




                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2000 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Major Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

Other Reviews of GSA Programs . . . . . . . . . . . . . . . . . . . . . . . . . . .15

Procurement and Related Activities . . . . . . . . . . . . . . . . . . . . . . . . .17

Partnering with GSA Management . . . . . . . . . . . . . . . . . . . . . . . . . .28

Prevention Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31

Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . .35

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .40

Appendices

Appendix I–Significant Audits from Prior Reports . . . . . . . . . . . . . .47

Appendix II–Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . . .50

Appendix III–Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61

Appendix IV–Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . . .70

Appendix V–Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . .71




This semiannual report may be accessed on the Internet at the
following address: http://www.gsa.gov/staff/ig/publications.html




                                                                     Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     April 1, 2000–September 30, 2000

                        Total financial recommendations                              $338,966,257

                        These include:

                        • Recommendations that funds be put to better use            $326,964,130

                        • Questioned costs                                           $ 12,002,127

                        Audit reports issued                                              100

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                             255

Results Attained        Management decisions agreeing with audit
                        recommendations, civil settlements, and
                        court-ordered and investigative recoveries                   $119,528,039

                        Indictments and informations on criminal referrals                 25

                        Cases accepted for criminal prosecution                            25

                        Cases accepted for civil action                                    13

                        Successful criminal prosecutions                                   23

                        Civil settlements                                                   6

                        Contractors debarred                                               32

                        Contractors suspended                                              25

                        Employee actions taken on administrative referrals
                        involving GSA employees                                            20




                                                                        Office of Inspector General v
                                       Fiscal Year 2000 Results




                                       During Fiscal Year (FY) 2000, OIG activities resulted in:

                                       • Over $383 million in recommendations that funds be put to better use
                                         and in questioned costs. If adopted, these recommendations ultimately
                                         result in savings for the taxpayer.

                                       • Management decisions to put funds of $113 million to better use based
                                         on OIG recommendations.

                                       • 211 audit reports that assisted management in making sound decisions
                                         regarding Agency operations.

                                       • 2 implementation reviews that tracked the progress of actions in
                                         response to internal audit reports.

                                       • $53 million recovered as a result of management decisions to recover
                                         funds, civil settlements, and court-ordered and investigative recoveries.

                                       • 244 new investigations opened and 185 cases closed.

                                       • 48 case referrals (72 subjects) accepted for criminal prosecution and
                                         21 case referrals (28 subjects) accepted for civil litigation.

                                       • 42 criminal indictments/informations and 32 successful prosecutions on
                                         criminal matters referred.

                                       • 15 civil settlements.

                                       • 11 referrals to other Federal agencies for further investigation.

                                       • 29 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 26 contractor suspensions and 61 contractor debarments.

                                       • 508 legislative matters and 50 regulations and directives reviewed.

                                       • 2,014 Hotline calls and letters received of which 192 warranted further
                                         GSA action.




vi Semiannual Report to the Congress
                      Executive Summary




                    This period, we continued to provide a variety of traditional services,
                    including program evaluations; contract and financial auditing;
                    management control reviews; investigative coverage and litigation support
                    in contract claims, civil fraud and enforcement actions, and criminal
                    prosecutions. In addition, we provided professional assistance through
                    enhanced consulting services and the use of alert reports designed to
                    quickly inform management of potentially serious deficiencies or other
                    concerns prior to completion of all analytical work and formal report
                    issuance. We also continued our work in addressing what we believe are
                    the major issues facing GSA.

                    Major Issues
                    We have highlighted a number of reviews that address major
                    management issues facing GSA. In December 1999, we identified to
                    members of the Congressional leadership the most serious management
                    challenges facing the Agency. Some of these challenges are in the areas
                    of Federal facilities and personnel protection, information technology, and
                    management controls. Significant reports issued this period address
                    many of these critical areas. Still others are being addressed through
                    ongoing and planned reviews. Our efforts during this period focused on
                    the following:

                    Protection of Federal Facilities and Personnel
                    As part of our ongoing review of GSA’s efforts to improve the safety and
                    security of Federal employees and buildings and at the request of the
Security guards     Federal Protective Service (FPS), we performed a follow-up review of a
                    contract security guard contract originally reported on in our last report to
                    the Congress. We found that only limited improvements have been
                    made. The contractor remains largely non-compliant with critical
                    contractual requirements such as training, testing, and supervision. In
                    addition, the contractor continues to staff unarmed guards at armed
                    posts. We strongly urged FPS management to quickly consider finding
                    alternative contracting sources (page 2). We also performed a review
                    concerning physical access controls in a regional office complex. We
Building security   noted that the complex contained multiple entry points, which can be
                    accessed by a card key system and/or security badge. Because of a
                    variety of security badges being used by complex tenants, it is difficult for
                    security personnel to discern the validity of badges; therefore, anyone
                    displaying some type of identification badge is allowed entry. We noted
                    that there is no formal procedure to ensure card keys are deactivated or
                    security badges returned when a holder no longer needs access to the
                    complex. Consequently, former employees still have access to the
                    complex (page 3).

                    Information Technology
                    GSA is in the process of replacing its aging National Electronic
                    Accounting and Reporting (NEAR) system with a new financial

                                                                     Office of Inspector General vii
                                           Executive Summary




                                         management system known as Pegasys, which is based on a commercial
   Financial management                  off-the-shelf product currently being used by 18 Government agencies.
          system                         Since 1999, project cost estimates have escalated from $34 million to
                                         $134 million and implementation dates have gone from 3 to 6 years. To
                                         date, approximately $39 million has already been obligated, with only part
                                         of Phase 1 operational on a currently planned four-phased project.
                                         Continual changes to the project scope, lack of detailed plans and tasks,
                                         insufficient project staff, and contractor payments based on hours worked
                                         rather than completed tasks will make it difficult for GSA to accurately
                                         project and control Pegasys’ total costs for both the development and
                                         GSA-wide integration. We advised management to implement control
                                         mechanisms to direct, monitor, and accurately assess the contractor’s
                                         performance in developing Pegasys. Also, an independent oversight and
                                         verification and validation process should be instituted to review progress
                                         and proposed system changes needed as development continues
                                         (page 4).

                                         We performed a review of GSA’s Critical Infrastructure Protection Plan
                                         (CIPP) for implementing Presidential Decision Directive 63 (PDD 63),
Cyber-based infrastructure               which is concerned with the security of cyber-based infrastructures of the
        security                         United States. Our review was part of the President’s Council on Integrity
                                         and Efficiency/Executive Council on Integrity and Efficiency (PCIE/ECIE)
                                         Governmentwide review of Federal agencies’ infrastructure assurance
                                         programs. With respect to GSA, we found the Agency has not clearly
                                         defined operational roles and responsibilities for protecting GSA’s critical
                                         infrastructure, does not include protection planning for all GSA critical
                                         infrastructure assets, nor provide for critical infrastructure security
                                         planning into the design of new systems. Moreover, GSA has not
                                         established an Agency-wide process for completing vulnerability
                                         assessments and risk mitigation plans for its cyber-based infrastructure,
                                         as required by PDD 63 (page 5).

                                         We examined GSA’s efforts to promote and assist Federal agencies in
          Smart card                     implementing the use of a single “smart card” which Federal employees
                                         can use to acquire a range of services including travel, small purchases,
                                         and building access. GSA established the Office of Smart Card Initiatives
                                         within the Federal Technology Service (FTS) to provide Governmentwide
                                         implementation and internal GSA coordination across its Services. A lack
                                         of coordination of GSA’s internal smart card efforts has led to a lack of
                                         standardization across GSA’s Service lines. We recommended that the
                                         office responsible for internal smart card implementation have clear and
                                         measurable standards to gauge its efforts. Furthermore, GSA needs to
                                         clearly communicate its specific responsibilities and guidance for
                                         coordinating, monitoring, and standardizing the smart card pilots and for
                                         full Governmentwide implementation (page 6).




viii Semiannual Report to the Congress
                            Executive Summary




                          In addition, we performed a review of the FTS Wireless
                          Telecommunications Services Program. Although GSA is currently
                          planning new initiatives aimed at improving wireless service to Federal
                          agencies, we noted the need for a clear acquisition plan and the need to
                          ensure adequate competition (page 8).

                          Management Controls
                          We reviewed management controls over proceeds from real property
                          sales. We performed this review to evaluate if management controls
  Revenue controls        provide assurance that revenue generated from the sale of real property
                          and reimbursable services provided to customer agencies are properly
                          accounted for, appropriately monitored, and safeguarded. We found GSA
                          cannot be assured that transactions are properly recorded and
                          Government assets are adequately protected. In addition, controls over
                          transaction recording, documentation, separation of duties, access to and
                          accountability for resources, and employee supervision are deficient. We
                          recommended a periodic review of the Property Disposal Revenue
                          Program and transactions, development of more meaningful, user friendly
                          reports, and better guidelines to zonal offices (page 10).

                          During our review of a GSA Fleet Management Center, we determined
                          that, while the Agency did a creditable job of implementing management
                          controls over its vehicles, improvements were needed to protect fleet
  Fleet charge cards      services charge cards, a $411 million program, from misuse. We also
                          found that GSA should ensure destruction of license plates from vehicles
                          removed from service. We recommended that fleet management:
                          improve controls over the approval for replacement fleet services charge
                          cards, separate ordering and receiving duties for the cards, verify the
                          deactivation of the cards for sold vehicles, and ensure proper notification
                          and verification of license plate destruction (page 12).

                          In order to make sound financial decisions regarding more than 8,300
                          owned and leased buildings, GSA must continuously assess and analyze
                          the revenues and expenses for each property. We initiated a review to
                          determine if the Agency has effective controls to ensure that all operating
Cost/revenue allocation   costs and revenues associated with a building are properly assigned to
                          that building. In some cases, when costs or revenues are not readily
                          assigned to a building, GSA uses holding accounts, which GSA refers to
                          as “dummy” accounts, to capture these costs until they can be properly
                          assigned in the accounting system. In our review, we found that entries
                          were incorrectly posted to dummy building accounts and were not
                          redistributed from these numbers to the appropriate accounts. While
                          there was no material impact on the financial statements, asset
                          management decisions could be influenced. For example, we found over
                          $345 million in new building construction costs, repair and alteration
                          projects, and project costs associated with multiple buildings that were



                                                                          Office of Inspector General ix
                                        Executive Summary




                                      not reassigned to appropriate buildings. We also found that other
                                      capitalized and depreciated costs were being improperly passed through
                                      dummy accounts. We recommended actions to strengthen controls to
                                      ensure that costs are properly allocated (page 13).

                                      Other Program/Operational Reviews
                                      GSA’s Federal Supply Service (FSS) is developing performance
                                      measures for its acquisition centers and linking them to its budget
                                      justification, as required by the Government Performance and Results
                                      Act. Based on a request from the Commissioner, FSS, we conducted a
         Best practices               best practices review of performance measures for acquisition centers.
                                      We met with 12 private sector companies and a state acquisition agency.
                                      We found that FSS is using many of the same key performance
                                      measures as the private sector to help achieve excellence in purchasing
                                      goods and services. FSS is also currently refining its performance
                                      measures to improve its management practices and service delivery
                                      (page 15).

                                      Procurement Integrity
                                      An important part of the OIG’s work is to support the Agency’s contracting
                                      officers and to protect the integrity of GSA’s procurement programs and
                                      operations by detecting and preventing fraud, waste, and abuse. Based
                                      on our audit and investigative work this period, the Government entered
                                      into six settlement agreements in which companies agreed to pay over
                                      $35 million to resolve potential civil liabilities under the False Claims Act.
                                      In one settlement, we obtained over $33 million from a company that sold
                                      defective laptop computers to Government agencies. Other settlements
                                      involved contractors who provided office products, cushioning and
                                      packing materials, and computers. The settlements involved allegations
                                      that the companies had misrepresented their commercial discount
                                      practices and had conspired to substitute inferior products in violation of
                                      the False Claims Act and other statutory and contractual provisions
                                      (pages 17-18).

                                      GSA has adopted the use of multiple award task and delivery order
                                      contracts (MACs) to aid Federal agencies in selecting contractors when
                                      the Government cannot determine the precise quantities of goods or
                                      services it will need for specific tasks. These contracts, referred to as
                                      indefinite delivery indefinite quantity contracts, are designed to promote
                                      competition among contractors, lower prices, improve quality, and to
                                      better meet agency requirements. Each of GSA’s Services developed
                                      MACs to meet customer requirements and to promote competition. At the
                                      request of GSA management, we reviewed GSA’s use of these contracts.
                                      Overall, we found that each of GSA’s Services used MACs but with mixed
                                      results. For example, our review showed that FTS clients have increased




x Semiannual Report to the Congress
  Executive Summary




their use of MACs when procuring information technology services. This
has resulted in greater flexibility and speed in meeting customer needs.
However, only a small percentage of these contracts complied with
Federal regulations that require contracts to be performance-based and
contain pricing incentives (page 19). The Public Buildings Service (PBS)
Property Management Centers used MACs to improve cost-effective
delivery of quality construction services. However, their use was
inconsistent throughout PBS, resulting in missed opportunities for less
costly services and better quality (page 20). We also reviewed the use of
MACs under the FSS Multi-Vendor Program. We noted that over 65
percent of the delivery orders we sampled were not supported by
documentation showing that vendors were provided a fair opportunity to
compete for these orders, and that acquisitions were not reported to the
Federal Procurement Data System. We made several recommendations
to GSA management to improve the overall use of MACs, by
documenting contractor selection, ensuring vendors have a fair
opportunity to compete, and strengthening controls over the ordering and
delivery processes (page 21).

GSA awarded national real estate services contracts in four geographic
areas for a wide variety of services, from administrative lease functions to
the full acquisition of space. We noted that the service contracts are
meeting customer and Agency requirements. However, we could not
determine the cost-effectiveness of these services because there is no
mechanism in place to measure the internal cost of operations. We
concluded that GSA needs to implement a cost accounting system to help
determine the advantage of providing leasing services in-house versus
purchasing leasing services through commercial real estate firms
(page 22).

We reviewed the award of several contracts used to provide financial and
consulting services to two Federal agencies and concluded that GSA did
not fulfill the Competition in Contracting Act requirement to use
competitive procedures in all non-exempt procurements for goods and
services. We recommended that officials provide for competition as
required by regulations and contract clauses (page 24).

Criminal Investigations
The OIG is a participant in the New York Electronic Crimes Task Force
that investigates telecommunications fraud primarily involving Federal
facilities within the New York metropolitan area. As a result of our
involvement with this task force, we completed investigations that resulted
in two arrests, two indictments, and five convictions this period (page 25).

Additionally, we investigated the fraudulent acquisition and disposal of
Federal surplus property (page 26). Another investigation resulted in a



                                                Office of Inspector General xi
                                          Executive Summary




                                        GSA employee pleading guilty to accepting a bribe from a Government
                                        contractor (page 32). We performed investigations regarding GSA’s
                                        $411 million fleet charge card program and $157 million small purchase
                                        charge program. We arrested a GSA employee for misusing a VISA
                                        International Merchant Purchase Authorization Card (IMPAC) (page 32)
                                        and had another employee plead guilty to Government charge card fraud
                                        (page 33).

                                        Value-Added Assistance Services
                                        The OIG continued to provide value-added professional assistance to
                                        GSA through participation in Agency improvement task forces,
                                        committees, and working groups. We continued to participate in a GSA
                                        task force established to facilitate a troubled courthouse construction
                                        project by responding to requests for information on cost allowability and
                                        other contract provisions (page 28). In addition, the OIG participates in a
                                        number of committees and working groups that directly affect our ability
                                        to add value to the Agency. For example, we participate in the
                                        Procurement Executives Council, the Information Technology (IT) Council,
                                        and the PCIE IT Roundtable. We also take part in the following working
                                        groups: GSA’s Data Warehousing Pilot, PCIE IT Security and Audit
                                        Workforce, and the PCIE Government Performance and Results Act. Our
                                        Inspector General for Auditing is a member of the Cost Accounting
                                        Standards Board (page 29).

                                        Summary Statistics
                                        The OIG made over $338 million in financial recommendations to better
                                        use Government funds; made 255 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 331 legislative and
                                        regulatory actions; and received 1,124 Hotline calls and letters. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling
                                        over $119 million. (See page v for a summary of this period’s
                                        performance.)




xii Semiannual Report to the Congress
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, internal controls assessments,
                        and financial and compliance audits. The office also conducts external
                        reviews in support of GSA contracting officials to ensure fair contract
                        prices and adherence to contract terms and conditions. The office
                        additionally provides advisory and consulting services to assist Agency
                        managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review functions.

                      • The Internal Evaluation Staff, a multidisciplinary staff that plans and
                        directs field office appraisals and conducts internal affairs reviews and
                        investigations.

                      • The Office of Administration, an in-house staff that provides
                        information systems, budgetary, administrative, personnel, and
                        communications services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in
                      Auburn and Cleveland.

Staffing and Budget   As of September 30, 2000, our on-board strength was 290 employees.
                      The OIG’s FY 2000 budget was $33.3 million.




                                                                       Office of Inspector General 1
                                              Major Issues




                                      The OIG is committed to addressing major management issues facing
                                      GSA. We identified and shared, with Congress and management, issues
                                      that present key challenges to the Agency. We made recommendations
                                      in several major areas that GSA management needs to take steps to
                                      address. It is our intention to assist management in improving Agency
                                      operations.

Significant OIG                       Protection of Federal Facilities and Personnel
Accomplishments                       Building Security
                                      GSA’s Federal Protective Service (FPS) has had an increased
                                      responsibility for security and law enforcement in Federal facilities since
                                      the 1995 bombing of the Federal building in Oklahoma City. Because of
                                      the heightened importance of the Agency’s security mission, the OIG has
                                      directed several reviews toward major activities within the FPS, and
                                      aspects of those reviews have been highlighted in our semiannual reports
                                      over the past several years.

                                      Contract Security Guard Program
                                      GSA contracts with private security firms for both armed and unarmed
                                      guards at Federal facilities. Currently, there are almost 7,000 contract
                                      security guards nationwide. FPS is attempting to create a national
                                      program and has determined that five program areas must be
   Contract guards                    standardized in all regional guard contracts. These include guard
       remain ill-                    training, weapons and ammunition, guard eligibility, a basic written
    equipped, and                     examination, and suitability and certification requirements. However, a
                                      lack of staffing to monitor the guard contractors presents a significant
     inadequately                     obstacle to reform.
      trained and
      supervised.                     This period, regional management asked us to evaluate the progress
                                      FPS has made toward resolving the deficiencies noted in our October 15,
                                      1999 alert report. In that review, OIG auditors identified significant
                                      matters that warranted management’s immediate attention regarding a
                                      northeastern state guard service contract. We discussed how FPS
                                      officials tolerated critical performance deficiencies, such as vacant or
                                      abandoned posts, without enforcing contract requirements or taking
                                      deductions against the contract. We also reported that GSA paid for
                                      training, weapons, uniforms, equipment, and supervisory hours that had
                                      not been provided. Our primary concern, however, was the security
                                      breakdown posed by allowing a contractor to continuously provide ill-
                                      equipped, inadequately trained, non-performing guards. FPS had been
                                      extending the contract on a month-by-month basis while monitoring the
                                      contractor’s performance. The results of our alert report were
                                      incorporated in our Contract Security Guard Program review, highlighted
                                      in the last semiannual report.

                                      In this follow-up review, we concluded that, despite FPS’s more active
                                      role in monitoring the contractor’s performance, only limited
2 Semiannual Report to the Congress
                            Major Issues




                    Protection of Federal Facilities and Personnel (continued)

                    improvements have resulted. The contractor in that region is still largely
                    non-compliant with critical contractual requirements such as training,
                    testing, and supervision. In addition, due to difficulties in obtaining
                    weapon permits, the contractor continues to staff unarmed guards at
                    armed posts.

                    The continuing deficiencies are such that FPS cannot provide the
                    intended level of security to its customers in this northeastern state.
                    Therefore, we strongly urged FPS officials to explore alternative
                    contracting sources in an expedited manner. Our review was continued
                    as a result of a management request and the report, dated May 16, 2000,
                    did not contain formal recommendations. As such, it is not subject to the
                    audit resolution process.

                    Building Access Controls
                    We reviewed the adequacy of controls over physical access to buildings
                    forming a regional office complex. The complex, comprised of seven
                    buildings, is campus-like in that the buildings are one or two story
                    structures, surrounded by parking areas. In the three buildings included
                    in our review, there are 15 entry points. These entrances can be
                    accessed by a card key system and/or by displaying a security badge to
 Building access    security personnel.
   controls at a
                    Most of the card keys can be used to access entrances at the complex
  regional office   24 hours a day, 7 days a week, and one card key will permit any number
complex must be     of people to enter and move about the building without restriction.
    improved.
                    A variety of security badges is currently being used by GSA and the other
                    tenant agencies within the complex. This impacts the security
                    personnel’s ability to discern the validity of the badges and, generally,
                    anyone is allowed to enter the building if they display any kind of
                    identification badge.

                    GSA has no formal procedure to ensure that card keys are deactivated or
                    security badges are returned when a holder no longer has a valid need
                    for routine access to buildings at the complex. Consequently, many
                    former regional employees continue to have unlimited access to the
                    complex.

                    Our September 19, 2000 report to the Regional Administrator
                    recommended that regional officials, in conjunction with the Building
                    Security Committee, reevaluate access controls at the complex.

                    Management officials agreed with our recommendation in the report. The
                    audit is still in the resolution process.


                                                                     Office of Inspector General 3
                                              Major Issues




                                      Information Technology
                                      Implementation of Pegasys
                                      In 1996, GSA began planning for the development of a new financial
                                      management system to replace its aging National Electronic Accounting
                                      and Reporting (NEAR) system. In 1998, GSA procured a commercial off-
                                      the-shelf (COTS) financial management product that is currently being
                                      used by 18 Government agencies. However, significant modifications
                                      were needed to this product to meet GSA’s requirements. This modified
                                      COTS system is known as Pegasys.
     The Pegasys
     development                      Pegasys cost estimates have grown significantly and substantial costs
     schedule has                     have already been incurred. Since 1999, the Pegasys development
                                      schedule has grown from 3 to 6 years, and estimated total development
    grown from 3 to                   and life cycle costs have increased from $34 million to $134 million. To
      6 years, and                    date, approximately $39 million has already been obligated with only part
    estimated costs                   of Phase 1 operational on a currently planned four-phased project. With
                                      the changes to the scope of the development effort and the lack of
    have increased                    detailed plans and tasks for later phases, it will be challenging for the
  from $34 million to                 Chief Financial Officer (CFO) to accurately estimate the cost for the total
     $134 million.                    Pegasys development and integration effort. Further, GSA pays the
                                      contractor based on hours worked on a task, rather than completion of
                                      certain system functions. The lack of mechanisms to control costs limits
                                      the CFO’s ability to meet current cost estimates and limit further cost
                                      increases.

                                      Pegasys has a very limited in-house project management staff—one full-
                                      time employee and various part-time personnel located across the
                                      country—that performs daily activities for the system. A Pegasys
                                      Advisory Board of senior GSA officials representing the major Agency
                                      Services has been established, but it does not decide project scope or
                                      direction, nor review or approve rescoping efforts. Only CFO top
                                      management officials decide what requirements and modifications to the
                                      software will be included in each phase.

                                      The COTS software, as originally purchased, meets requirements set
                                      forth by the Joint Financial Management Improvement Program (JFMIP),
                                      as required by the Federal Financial Management Improvement Act
                                      (FFMIA). JFMIP issues guidance on financial management improvement
                                      and the development of financial systems. According to JFMIP, a
                                      financial system is made up of a number of core functions that maintain
                                      account balances by fund structure and individual general ledger
                                      accounts. The core functions also ensure that the Federal Government
                                      does not obligate or disburse funds in excess of those appropriated, and
                                      provide appropriate controls over all payments made by or on behalf of
                                      an agency. Significant modifications made to the original software affect
                                      some of these core functions. For example, the credit card features in
                                      the software, a part of the payment function, were not sufficient to meet

4 Semiannual Report to the Congress
                             Major Issues




                     Information Technology (continued)

                     GSA’s needs and required extensive modifications. Also, receipt
                     management will not be included in Pegasys and will be initiated as a
                     separate development effort. Without independent review of major
                     modifications and an assessment of their impact on the entire system,
                     GSA risks building a system that may have to undergo significant
                     modifications later in order to comply with JFMIP requirements.

                     Development of Pegasys could benefit from an ongoing Independent
                     Validation and Verification (IV&V) process by an organization that is
                     neither the developer nor the acquirer of the software. IV&V uncovers
                     high risk errors early, evaluates the products against system
                     requirements, and employs many types of analysis, including
                     requirements, design, code, performance, and cost, as well as testing, to
                     ensure that software development efforts are successful.

                     In order to improve GSA’s ability to effectively and efficiently deliver
                     Pegasys capabilities, the CFO needs to implement control mechanisms to
                     direct, monitor, and accurately assess the contractor’s performance in
                     developing Pegasys. Also, an oversight and verification and validation
                     process should be instituted to make any changes needed as
                     development continues. Finally, the CFO should ensure that the system
                     meets all necessary requirements.

                     Our September 29, 2000 report was intended to alert management to
                     matters requiring immediate attention concerning Pegasys cost and
                     development. We advised the CFO that we plan to continue our
                     evaluation of the Pegasys system development and the matters cited in
                     this alert report will be closely monitored.

                     This report contained no formal recommendations and is not subject to
                     the audit resolution process.

                     Critical Infrastructure Protection Plan
                     In May 1998, President Clinton issued Presidential Decision Directive 63
                     (PDD 63), which calls for a national effort to assure the security of the
GSA falls short in   increasingly vulnerable and interconnected infrastructures of the United
   its efforts to    States, especially the cyber-based infrastructures. The directive places
improve security     special emphasis on protection of the Government’s own critical assets
                     from cyber attack and the need to remedy deficiencies in order to become
  for its critical   a model of information security. Our review of GSA’s Critical
    assets and       Infrastructure Protection Plan (CIPP) for implementing PDD 63 was a part
   cyber-based       of a President’s Council on Integrity and Efficiency/Executive Council on
                     Integrity and Efficiency (PCIE/ECIE) Governmentwide review of Federal
 infrastructures.    Agencies’ infrastructure assurance programs.



                                                                     Office of Inspector General 5
                                              Major Issues




                                      Information Technology (continued)

                                      Agency-wide operational roles and responsibilities for protecting GSA’s
                                      critical infrastructures have not been clearly defined and are currently split
                                      between the Chief Infrastructure Assurance Officer (CIAO), within the
                                      Office of Federal Technology Service’s Office of Information Security, and
                                      the Office of the Chief Information Officer (CIO). Although the CIAO,
                                      along with a designated team, completed the CIPP for GSA, the CIAO
                                      lacked operational and policy authority to direct information technology
                                      security policies and procedures necessary to implement the Plan. The
                                      CIAO and the CIO must coordinate their efforts to assure that the PDD 63
                                      actions that were planned for in the Agency’s CIPP are completed.

                                      GSA’s CIPP does not: (a) identify milestones for incorporating its critical
                                      infrastructure protection functions into GSA’s strategic planning and
                                      performance measurements frameworks, (b) require the Agency to
                                      ensure security procedures are incorporated into the design of new
                                      infrastructures, or (c) identify milestones for establishing procedures to
                                      ensure that the Agency incorporates critical infrastructure security
                                      planning into the basic design of new programs or systems.

                                      PDD 63 defines critical infrastructures as those physical and cyber-based
                                      systems essential to the U.S. economy and to maintain minimum
                                      operations of the Government. GSA’s CIPP identifies 52 cyber-based
                                      systems as mission critical, but does not define mission criticality. The
                                      systems identified in the CIPP were derived from GSA’s Year 2000
                                      conversion process rather than through an assessment of the Agency’s
                                      core missions or critical assets. Consequently, GSA’s CIPP does not
                                      include protection planning for all GSA critical infrastructure assets or
                                      provide for an evaluation of new assets. Moreover, GSA has not
                                      established an Agency-wide process for completing vulnerability
                                      assessments and risk mitigation plans for its cyber-based infrastructure,
                                      as required by PDD 63.

                                      Our September 29, 2000 review was a part of the PCIE/ECIE
                                      Governmentwide review. The report contained no formal
                                      recommendations and is not subject to the audit resolution process.

                                      Smart Card Initiatives
                                      In July 1996, the Office of Management and Budget (OMB) formally
                                      requested GSA to be the lead agency in the promotion and
                                      implementation of smart cards for the Federal Government. GSA
                                      assigned this responsibility to its Office of Governmentwide Policy. A
                                      smart card, which has an integrated circuit chip containing a
                                      microprocessor, has read, write, and calculate function capability. This




6 Semiannual Report to the Congress
                            Major Issues




                    Information Technology (continued)

                    tiny portable database can be used for many technologies such as bar
                    codes, magnetic stripes, and digitized photos.

                    The smart card initiative was further advanced when the President stated
      While         in his FY 1998 Budget that “the Administration wants to adopt ‘smart card’
emphasizing the     technology so that, ultimately, every [Federal] employee will be able to
                    use one card for a wide range of purposes, including travel, small
   award of the     purchases, and building access.” GSA’s Administrator then created the
Governmentwide      Office of Smart Card Initiatives (OSCI), tasked with overseeing the
   contract for     implementation of these cards Governmentwide and coordinating the
                    Agency’s in-house smart card programs. The following year, OSCI was
 acquiring smart    transferred to the Federal Technology Service. Soon after, it became a
  card services,    business line and changed its focus from one of central oversight and
GSA neglected its   coordination to one of providing a contract vehicle for acquisition, project
                    management, and assistance to Federal agencies on a reimbursable
    own card        basis.
 implementation.
                    The Agency has made some progress in its implementation efforts.
                    Numerous pilots and smart card applications were tested following the
                    formation of the smart card business line. Additionally, a contract was
                    recently awarded, estimated at $1.5 billion over 10 years, that will allow
                    the Federal Government to procure smart card services, project
                    management, training assistance, and support. GSA also issued
                    technical guidelines and is currently working with a committee to produce
                    standards for Governmentwide interoperability.

                    We found, however, that the results for only two of thirteen pilot projects
                    could be used to improve the smart card application. These two pilots
                    were centrally managed and coordinated, and closely monitored. One
                    was the implementation of developing, manufacturing, administering, and
                    utilizing the multi-function smart chip card; the other was for building
                    access and security. We noted that many of the remaining pilots lacked
                    centralized management, coordination and monitoring, as well as a
                    defined plan and lessons learned assessment.

                    In its Interoperability Guidelines, GSA recognizes the need to have a
                    management structure that will allow the integration and management of
                    multiple applications across functional and organizational boundaries.
                    However, the lack of coordination of GSA’s internal smart card efforts led
                    to a lack of standardization across GSA’s Service lines. While
                    emphasizing the award of the Governmentwide contract for acquiring
                    smart card services, GSA neglected its own card implementation.




                                                                     Office of Inspector General 7
                                              Major Issues




                                      Information Technology (continued)

                                      In our September 11, 2000 report to the Associate Administrator, Office of
                                      Governmentwide Policy, and the Commissioner, Federal Technology
                                      Service, we recommended that:

                                      • The office responsible for internal smart card implementation be
                                        identified and have clear and measurable standards to gauge its
                                        efforts.

                                      • Specific responsibilities and guidance be provided for coordinating,
                                        monitoring, and standardizing the smart card pilots and full
                                        implementation.

                                      Management agreed with the recommendations in the report. The audit
                                      is still in the resolution process.

                                      FTS Wireless Telecommunications Services Program
                                      GSA’s Federal Technology Service (FTS) offers nationwide cellular and
                                      paging services and equipment to Federal agencies via its Federal
                                      Wireless Telecommunications Services (FWTS) Program. The program
  Because the FTS                     features a national contract with direct order and direct bill arrangements,
  contracts offered                   where the service providers are free to extend their latest commercial
                                      offerings. Nevertheless, demand for services under this contract remains
      no price                        far below expectations. FTS is experimenting with other contract vehicles
  advantage, many                     in an effort to add value to the customers and increase sales volume.
   cost-conscious
                                      We performed this review to determine if the wireless program was
     customers                        providing a good value to its customers and if its contracts were operating
  resorted to direct                  within the bounds of the Federal Acquisition Regulation. Because the
                                      FTS contracts offered no price advantage, many cost-conscious
    procurement.
                                      customers resorted to direct procurement. FTS’s future strategy will
                                      engage multiple vendors offering their products and services through
                                      commercial market channels, and will provide a single electronic site, a
                                      virtual wireless store, where customers can compare prices, features, and
                                      coverage areas before purchasing online.

                                      Although FTS is in the midst of implementing many new wireless program
                                      initiatives, we were able to discern procurement-related vulnerabilities
                                      that may impede program success. We noted the absence of a cohesive
                                      acquisition plan and lack of sufficient detail to ensure a proper and
                                      complete procurement design. As a result, procurement objectives
                                      seemed to lack a clearly defined target market and procedures to ensure
                                      an adequate level of competition.




8 Semiannual Report to the Congress
        Major Issues




Information Technology (continued)

With respect to the individual procurements that now comprise this
evolving wireless program, we found:

• Changes to the FWTS contract have, in effect, created a sole source
  marketing opportunity for the two primary subcontractors, with no
  justification for other than full and open competition.

• FTS’s new multiple award indefinite delivery indefinite quantity (IDIQ)
  contracts do not incorporate a procedure to provide vendors with a fair
  opportunity to be considered for each task order.

• Achieving and maintaining a viable level of competition under the
  multiple award IDIQ contracts may be challenging.

• There is considerable potential overlap in contracts under this wireless
  program, FTS 2001, and Federal Supply Service (FSS) Multiple Award
  Schedule (MAS) contracts.

• The ultimate success of FTS’s proposed e-commerce solution—a
  virtual wireless store that will post available service plans and
  equipment for comparison and online purchase—will be a direct
  function of the extent to which the underlying contracts offer better than
  market prices.

We concluded that FTS has the technical expertise and working
knowledge to develop a viable acquisition plan for wireless services;
however, it lacks the authority to create a multiple award contract with all
the advantages available under the FSS MAS Program. Conversely,
while FSS has the procurement authority, wireless service represents a
new, unfamiliar market and a substantial learning curve. Both services
should cooperate in their planning and either consolidate their
procurement actions under a single unified acquisition or clearly
differentiate their separate contracts.

We recommended, in our July 27, 2000 report, that the Commissioner,
Federal Technology Service:

• Not exercise future options to extend the FWTS contract.

• Work with the FSS procurement personnel to conduct adequate market
  research and prepare a cohesive acquisition plan for wireless services.

• Incorporate provisions in multiple award contracts to ensure vendors
  receive fair opportunity to be considered.



                                                  Office of Inspector General 9
                                               Major Issues




                                       Information Technology (continued)

                                       A responsive management action plan was provided for implementing the
                                       report recommendations.

                                       Information Tracking Process
                                       The Federal Technology Service (FTS) has automated its procurement
                                       and financial tracking process by implementing the Integrated Task Order
                                       Management System (ITOMS) and the IT Solutions Shop (ITSS). The
                                       systems were developed to increase the efficiency of financial
                                       management processing and order preparation, respectively.

                                       Although current efforts and future planned actions indicate a significant
                                       attempt to properly develop and implement ITOMS, the scope and
 Inadequate testing                    functionality of the system have evolved rather than being defined as a
     has caused                        part of system development life cycle processes.
 processing delays
                                       Inadequate testing has caused processing delays and inaccurate financial
   and inaccurate                      records, which may adversely affect GSA, client agencies, and industry
      financial                        partners. As a result of our review, FTS has begun to implement a
    information.                       revised testing strategy. The Service has also significantly modified its
                                       implementation schedule to allow for increased testing of applications.

                                       Our September 18, 2000 report to the Commissioner, Federal Technology
                                       Service, recommended that management continue the current
                                       procurement efforts in ITOMS application development and increase
                                       emphasis on using the resources of the FTS Chief Information Office to:
                                       (a) identify anticipated system requirements, (b) increase centralized
                                       control and guidance, and (c) improve cost projections and budgeting.

                                       Management officials agreed with our recommendation in the report. The
                                       audit is still in the resolution process.

                                       Management Controls
                                       Controls over Proceeds from Real Property Sales
                                       GSA disposes of surplus real property under its direct authority provided
                                       by the Federal Property and Administration Services Act. It also disposes
                                       of properties for other Federal agencies on a cost reimbursable basis.
                                       The Agency transfers surplus property to another Federal agency for
                                       continued use, sells the property at a discount (or donates it) to a state or
                                       local government, or sells the property to the general public. For
                                       FY 1999, GSA’s cost for operating the program was approximately
                                       $29 million, and revenue collections totaled over $42 million.

                                       We performed this review to evaluate if management controls provide
                                       assurance that revenue generated from the sale of real property and


10 Semiannual Report to the Congress
                            Major Issues




                    Management Controls (continued)

                    revenue from reimbursable services provided to customer agencies are
                    properly accounted for, appropriately monitored, and safeguarded.

                    We found that GSA cannot be assured that transactions are properly
  GSA cannot be     recorded and Government assets are adequately protected. Controls
                    over transaction recording, documentation, separation of duties, access to
   assured that     and accountability for resources, and employee supervision are deficient.
    surplus real    We found that:
      property
                    • Property disposal zonal offices use a predominantly manual accounting
 transactions are     process for their disposal activities. The processes used often do not
properly recorded     provide adequate documentation for transactions, do not lend
 and Government       themselves to easy verification of transaction recording, and make
                      supervision over the process difficult. The processes do not ensure
     assets are       that transactions are properly categorized as reimbursable and billed to
     protected.       client agencies. Although GSA developed a management information
                      system with modules to track both time and project cost, neither
                      module is currently being used.

                    • Controls over receipts were not sufficient to assure that: check receipt
                      logs were maintained, bid deposits were sent to the Office of Finance
                      in a timely manner, proceeds were distributed timely, and customer
                      agencies were provided a detailed accounting of transactions.

                    • The Finance Processing Center eliminated a monthly report previously
                      used by the zonal offices to monitor cash receipts and reimbursements,
                      and required the zonal offices to provide a new report. However, clear
                      guidance on accurate preparation of the new report was not provided.

                    • The current billing rate does not provide for total reimbursable program
                      cost recovery.

                    In our August 21, 2000 report to the Commissioner, Public Buildings
                    Service, we recommended that the Office of Property Disposal:

                    • Initiate, in consultation with other Agency components and the Office of
                      Finance, a periodic review of the Property Disposal Revenue Program
                      and transactions to test compliance with and effectiveness of the
                      controls established.

                    • Partner with the Office of Finance to find better ways to use available
                      accounting tools and develop new mechanisms to provide more
                      meaningful, user-friendly reports that management can use to oversee
                      cash receipts and disbursement activities.



                                                                    Office of Inspector General 11
                                               Major Issues




                                       Management Controls (continued)

                                       • Provide better guidelines to zonal offices, stressing the need for
                                         adequate supervision and better separation of duties, and mandate the
                                         use of a time tracking system for all employees.

                                       The Commissioner agreed in principle with some of the report
                                       observations and outlined planned actions that would fulfill the intent of
                                       most of the recommendations. The audit is still in the resolution process.

                                       Fleet Management Center Controls
                                       GSA’s Fleet Management Centers (FMCs) provide full service leases for
   Key duties and                      motor vehicles to Federal agencies. These leases include fuel and
                                       maintenance, which is charged to a fleet services charge card assigned
   responsibilities                    to each vehicle. The fleet services charge card program is valued at
      need to be                       $411 million. FMCs are responsible for vehicle license plates, ordering
     separated to                      new and replacement credit cards, monitoring credit card usage and
                                       repair charges, and responding to customer inquiries. This period, the
  minimize potential                   OIG reviewed the operations of one regional FMC, which manages
   misuse of fleet                     approximately 5,000 motor vehicles leased to customer agencies.
   services cards.
                                       The audit determined that, while the FMC did a creditable job of
                                       implementing management controls over its vehicles, improvements were
                                       needed to protect fleet services cards from misuse and to ensure
                                       destruction of license plates from vehicles removed from service.

                                       • Services cards. During our review of the FMC, we observed that key
                                         duties and responsibilities related to fleet services cards are vested in
                                         one individual. This person is responsible for ordering new and
                                         replacement cards, receiving and distributing the cards, and
                                         deactivating the cards when vehicles are removed from service. These
                                         duties need to be separated in order to minimize potential misuse and
                                         to comply with internal control standards.

                                         A recent OIG investigation of activities at another FMC revealed illegal
                                         purchases made with cards that should have been destroyed.
                                         Because of a lack of controls, an individual ordered replacements for
                                         100 incorrectly embossed cards and recorded the cards on a
                                         destruction log, but kept and used the cards for illegal purchases.
                                         GSA lost approximately $18,000 before the deception was detected.

                                       • License plates. Although the FMC has contracted with an auction
                                         house to destroy plates from vehicles that are removed from service
                                         and sold by the auction house, no FMC employee witnesses the
                                         destruction, nor is the FMC provided an opportunity to do so. Without
                                         this independent verification of plate destruction, or notification of



12 Semiannual Report to the Congress
                             Major Issues




                     Management Controls (continued)

                       which plates will be destroyed, the FMC has no assurance that the
                       plates will not be illegally used.

                     In our September 29, 2000 report to the Regional Administrator, we
                     recommended that Fleet Management:

                     • Require that all orders for replacement fleet services cards be
                       approved by a fleet services representative or the FMC manager.

                     • Separate ordering and receiving duties for fleet services cards.

                     • Compare an inventory of vehicles and cards in the database to a list of
                       vehicles sold to ensure that the corresponding cards have been
                       appropriately deactivated.

                     • Require auction houses to notify the FMC before destroying license
                       plates and ensure that FMC employees take steps to ensure the actual
                       destruction of license plates.

                     • Direct the staff to comply with GSA policy for using credit cards.

                     Management officials agreed with our recommendations in the report.
                     The audit is still in the resolution process.

                     Dummy Building Accounts
                     GSA provides a wide range of real estate services, including property
                     management, construction, repair and alteration, and portfolio
                     management, to Federal agencies in more than 8,300 owned and leased
                     buildings nationwide. In order to make sound financial decisions
  GSA needs to       regarding these buildings, GSA must continuously assess and analyze
    strengthen       the revenues and expenses for each property.

controls to ensure   To aid management in effectively managing its assets, costs identifiable
that management      to specific buildings need to be charged to those buildings. In cases
                     where the Agency cannot readily assign costs to a specific building, it
  decisions are
                     uses holding accounts, which GSA refers to as “dummy” building
 based on sound      numbers, to capture these costs in the accounting system. Dummy
     financial       accounts are also sometimes used to temporarily capture project costs
                     until they can be properly redistributed.
   information.
                     During a recent review, OIG auditors noted the Agency was
                     inappropriately using reimbursable work authorizations to acquire




                                                                     Office of Inspector General 13
                                               Major Issues




                                       Management Controls (continued)

                                       financial and consulting services for other Government agencies. (See
                                       “Financial and Counsulting Services,” page 24.) Since these transactions
                                       were processed through regional dummy building accounts, we initiated
                                       this review to determine if the Agency has effective controls to ensure the
                                       propriety and accuracy of financial data recorded against the dummy
                                       numbers.

                                       We found that entries were incorrectly posted to dummy building
                                       accounts and were not redistributed from these numbers to the
                                       appropriate accounts. While there was no material impact on the
                                       financial statements, asset management decisions could be influenced.
                                       We noted that:

                                       • $344.7 million for construction of new buildings was not reassigned to
                                         the appropriate buildings;

                                       • over $300 thousand for repair and alteration projects was charged to
                                         dummy accounts rather than the appropriate buildings;

                                       • $1.6 million of depreciation expense was processed through dummy
                                         numbers; and

                                       • general and administrative costs for new construction and repair and
                                         alteration projects are being capitalized and depreciated through
                                         dummy building accounts rather than through the individual building
                                         numbers, contrary to Federal Financial Accounting Standards
                                         requirements.

                                       We concluded that the Agency needs to strengthen controls to ensure
                                       that management decisions are based on sound financial information.
                                       We observed several factors that contribute to the above concerns,
                                       including regional staff not verifying the accuracy of their transactions;
                                       supervisors not emphasizing the need for, and assuring, accuracy; and
                                       regional staff being unsure of their duties and responsibilities for
                                       recording project costs. Management needs to address these factors to
                                       ensure accurate reporting of the data.

                                       Our September 15, 2000 report to the Commissioner, Public Buildings
                                       Service, included recommendations to implement effective controls to
                                       ensure the accuracy of financial data for individual buildings.

                                       The Commissioner agreed with the recommendations in the report. The
                                       audit is still in the resolution process.




14 Semiannual Report to the Congress
                    Other Reviews of GSA Programs




                        GSA is a central management agency that sets Federal policy in such
                        areas as Federal procurement, real property management, and
                        telecommunications. GSA also manages diversified Government
                        operations involving buildings management, supply facilities, real and
                        personal property disposal and sales, information technology, and motor
                        vehicle and travel management. Our audits examine the efficiency,
                        effectiveness, and integrity of GSA programs and operations, and result
                        in recommendations and reports to management. Our internal audit
                        program is designed to facilitate management’s evaluation and
                        improvement of control systems by identifying areas of vulnerability and
                        providing consulting and advisory services.

Significant OIG         Acquisition Best Practices
Accomplishments         GSA’s Federal Supply Service (FSS) is working to develop meaningful
                        performance measures that are linked to the Agency’s budget, as
                        required by the Government Performance and Results Act. FSS recently
                        contracted with a management consulting firm to assist with development
                        of performance measures for all FSS programs. Additionally, the FSS
                        Commissioner requested that our office conduct a best practices review
                        of performance measures for acquisition centers.

                        The Office of Acquisition is part of FSS’s Supply and Procurement (S&P)
   GSA is taking        business line. The goals of the business line are to: (1) be an employer
 steps to enhance       of choice for a high performance organization, (2) partner with customers
                        and industry, (3) improve electronic commerce and GSA Advantage!, and
   its supply and       (4) promote sound management practices. The performance measures
    procurement         for each goal, contained in S&P’s Business Plan, are currently being
  business line’s       refined.
    performance         We identified best practices by addressing each of the S&P business line
      measures.         goals in terms of whether or not the goal was found in industry and how
                        industry measured the goal. We met with 12 private sector companies
                        and one state acquisition agency. As a result of our meetings with
                        procurement organizations, we learned that most shared at least one
                        S&P business goal. We obtained information on how industry measures
                        these goals and determined that the organizations use key practices to
                        achieve excellence in purchasing goods and services relative to these
                        goals. The industry key practices are:

                        • Encourage and support needed skill sets for acquisition professionals.

                        • Identify big impact areas and focus partnering activities strategically.

                        • Seek information on key suppliers and customers.




                                                                         Office of Inspector General 15
                                Other Reviews of GSA Programs




                                       • Use information gained as leverage for creating successful
                                         relationships for customers, suppliers, and the procurement
                                         organization.

                                       • Reap the most benefit from electronic commerce as a partnering tool.

                                       • Add value through strategic sourcing activities.

                                       • Measure success in cost savings and efficiencies in supply chain
                                         management.

                                       We gave a presentation to management officials highlighting the results
                                       of our review and providing useful comments in regard to the business
                                       line’s existing performance measures for each goal.

                                       Our September 20, 2000 advisory report contained no formal
                                       recommendations and is not subject to the audit resolution process.




16 Semiannual Report to the Congress
                  Procurement and Related Activities




                       GSA is responsible for providing working space for almost 1 million
                       Federal employees. GSA, therefore, acquires buildings and sites,
                       constructs facilities, and leases space, and also contracts for repairs,
                       alterations, maintenance, and protection of Government-controlled space.
                       GSA also manages the transfer and disposal of excess and surplus real
                       and personal property and operates a Governmentwide service and
                       supply system. To meet the needs of customer agencies, GSA contracts
                       for billions of dollars worth of equipment, supplies, materials, and services
                       each year. We conduct reviews and investigations in all these areas of
                       activity to ensure that the taxpayers’ interests are protected.

Significant OIG        Over $35 Million in Civil Recoveries
Accomplishments        During this period, the Government entered into 6 settlement agreements
                       in which companies agreed to pay a total of over $35 million to resolve
                       their potential civil liabilities under the False Claims Act. These
                       agreements, negotiated by representatives of the Department of Justice
                       and the GSA OIG, reflect the ongoing efforts of the OIG to pursue cases
                       involving procurement fraud and other practices that threaten the integrity
                       of the Government’s procurement process. Highlights of some cases
                       follow:

                       • On September 29, 2000, Toshiba America Information Systems, Inc.
                         (Toshiba) paid the United States $23 million in settlement of claims
                         arising from Toshiba’s sale of defective computer laptops to
                         Government agencies. The United States will also receive
                         $10.5 million in coupons for the purchase of Toshiba products. The
                         investigation arose from allegations that a defect contained in Toshiba’s
                         laptops will periodically cause undetected data corruption. A class
                         action asserting these allegations was filed in the Eastern District of
                         Texas. The Government opted into the settlement reached in the class
                         action and settled all potential Government claims arising from the
                         allegations, including those arising under the civil False Claims Act.

                       • Lanier Worldwide, Inc. has paid the Government over $1.3 million to
                         settle the Government’s claims, including its potential civil False Claims
                         Act liability. The Government alleged that Lanier misled GSA
                         contracting officials in the negotiation of six GSA Multiple Award
                         Schedule (MAS) contracts for a variety of office products, including
                         facsimile machines and dictation equipment, by failing to disclose
                         better pricing extended to certain state and local customers or other
                         commercial customers. The Government alleged that the inaccurate
                         disclosures led to inflated pricing under the contracts. The settlement
                         amount included over $143,000 that Lanier had previously paid GSA to
                         partially resolve pricing issues relating to the same contracts.

                       • F.P. Woll & Co. (F.P. Woll) had a MAS contract to supply specialized
                         cushioning and packing materials to GSA’s customers. An

                                                                       Office of Inspector General 17
                              Procurement and Related Activities




                                         investigation determined that, in the course of its performance of the
                                         contract, F.P. Woll began substituting a lesser-quality material for one
                                         of the items on the contract. F.P. Woll agreed to pay $250,000 to
                                         settle its potential False Claims Act liability.

                                       • Sales and Marketing Assistance Corporation of Gaithersburg, Maryland
                                         agreed to pay $250,000 to settle its potential False Claims Act liability.
                                         The suit, brought by an individual citizen under the qui tam provisions
                                         of the False Claims Act, alleged that the company made serious
                                         misrepresentations regarding the computers it sold to Federal
                                         customers. The complaint alleged that the computers contained
                                         counterfeit hardware and software and used components. The qui tam
                                         provisions of the False Claims Act allow individuals to bring suit, on
                                         behalf of themselves and the Federal Government, against contractors
                                         who submit false claims to the Government. The individual who
                                         brought the qui tam action will receive 17 percent of the settlement.

                                       • The Wyandotte Indian Tribe of Oklahoma agreed to pay $45,000 to
                                         settle the Government’s claim that it violated the False Claims Act by
                                         obtaining Federal excess property and then selling or bartering it for
                                         cash or other property. The excess property, including vehicles, motor
                                         graders, forklifts, tool kits, and other equipment, was originally obtained
                                         legally and was to be put to the direct use of the tribe for training and
                                         for use on community service construction projects. The investigation
                                         found that, instead, the equipment was sold and the proceeds were
                                         deposited in a tribal bank account. As part of the settlement, the tribe
                                         also returned over $336,000 worth of equipment to the Government.

                                       Task and Delivery Order Contracts
                                       GSA provides Federal agencies with products and services valued in the
                                       billions of dollars through various types of contracts, one of which is a
                                       multiple award task and delivery order contract (MAC). This type of
                                       contract is appropriate when the Government cannot predetermine,
                                       above a specified minimum, the precise quantities of supplies or services
                                       that will be required during the contract period. GSA competitively
                                       awards, using source selection procedures, multiple contracts covering
                                       the same scope of work and then, as needs are identified for specific
                                       tasks and products, the agencies compete the task/delivery orders among
                                       the contract holders. The use of multiple award contracts is encouraged
                                       by the Federal Acquisition Streamlining Act of 1994 to promote best value
                                       and the fair opportunity for contract awardees to compete among
                                       themselves. The competition is intended to lower prices, obtain better
                                       quality, reduce delivery time, and improve customer service.

                                       Each of the GSA’s three major Services developed MACs to promote
                                       competition and to better meet the requirements of the Agency’s
                                       customers. Our assessment of the use of MACs by GSA was done at the

18 Semiannual Report to the Congress
                      Procurement and Related Activities




                           request of the Office of Acquisition Policy because a number of reports
                           issued by the General Accounting Office and other Inspectors General
                           indicated that some Federal agencies were inconsistently applying
                           competition requirements when using multiple award contracts.

                           Federal Technology Service (FTS)
                           FTS’s clients have increased their use of the popular MACs when
     Less than             procuring information technology services because these contracting
15 percent of FTS          vehicles allow the Federal agencies greater flexibility and speed in getting
                           what they need. Questions remain, however, about whether these
    orders were            benefits come at the expense of competition and good pricing.
   performance-
  based and the            In an effort to promote the concepts of fair opportunity and best value, the
                           Office of Management and Budget (OMB) in 1997 advocated the use of
  orders lacked            performance-based contracting. As a result of the cost reductions and
pricing incentives.        increased customer satisfaction demonstrated by a pilot project
                           completed in 1998 by OMB, the Federal Acquisition Regulation (FAR)
                           was changed to require that performance-based work statements be used
                           to the maximum extent practicable for service-type contracts. GSA’s
                           Office of Acquisition Policy also acknowledged the need to incorporate
                           performance in an order’s statement of work, including price incentives, to
                           encourage innovation and cost savings in the procurement. Our audit
                           sample indicated that less than 15 percent of FTS orders were
                           performance-based and that the orders lacked pricing incentives.

                           While FTS’s delivery/task order award process provides each contractor
                           with an opportunity to bid, there are factors that can inhibit or even bias
                           the process. As a result, not all MAC contractors have the same
                           opportunity to be successfully considered for an order. For example,
                           contracting officers exercise broad discretion in determining the
                           procedures to follow when awarding work, including development of
                           contractor selection criteria. Selection criteria can incorporate factors
                           such as past performance, quality of deliverables, price, and cost, all of
                           which are often heavily influenced by the client’s expectations.

                           FTS makes an effort to collect data on contractor performance for each of
                           its task orders; nevertheless, current performance is not used as a factor
                           for awarding work. Making current contract performance ratings visible to
                           clients and competing MAC contractors could help them become a more
                           integral part of the competitive process, and contractors would be
                           motivated to improve their performance ratings.

                           Revenue is generated in FTS from contract access fees collected from
                           payments to MAC contractors to cover Solution Development Center
                           costs, and service fees charged to clients to cover Customer Support
                           Center costs. These fees vary widely among GSA’s regional offices,



                                                                           Office of Inspector General 19
                              Procurement and Related Activities




                                       which is inconsistent with FTS’s stated business goal of setting a uniform
                                       price for the same level of service, regardless of geographic location.

                                       Our September 19, 2000 report recommended that the Commissioner,
                                       Federal Technology Service:

                                       • Enhance FTS procurement practices to better suit client needs and
                                         save the Federal taxpayer even more.

                                       • Remove inhibitors to fair opportunity and promote meaningful
                                         competition.

                                       • Strengthen management controls for MAC task/delivery order award
                                         and administrative processes.

                                       • Develop a transition plan that provides for uninterrupted service to
                                         clients at the end of the current MACs.

                                       The Commissioner agreed with the recommendations in the report. The
                                       audit is still in the resolution process.

                                       Public Buildings Service (PBS)
                                       PBS is responsible for providing customer agencies with fully serviced
   Opportunities for                   space in Federally owned and leased buildings. The PBS organizational
    less costly and                    structure varies by region, but MACs are available for use by Property
                                       Management Centers (PMCs), their organizational equivalents, or their
     higher quality                    subordinate Field Offices. A PMC may cover a large geographic area,
   services are not                    such as a State or Region, whereas a Field Office is responsible for a
      maximized.                       building or group of buildings in a city or other limited area.

                                       In 1996, as part of its “Can’t Beat GSA Space Alterations” initiative, PBS
                                       adopted the use of MACs to play a key role in the improved delivery of
                                       space alterations. PBS has a total of 312 multiple award contracts. At
                                       the time of our review, 2,052 delivery orders, valued at over $176 million,
                                       had been placed against those contracts. In order for competition to
                                       occur for construction work, the ordering agency must have drawings
                                       and/or written specifications that can be provided to each contractor from
                                       whom a bid is requested. Government estimates are required when the
                                       order is expected to be $100,000 or more.

                                       We found that the use of MACs for construction work was inconsistent
                                       and opportunities to provide less costly and higher quality services were
                                       not being maximized. PMCs have embraced MACs, and for the most
                                       part are using them appropriately by seeking and obtaining competition
                                       for the task orders they award. This results in the cost-effective delivery
                                       of quality services. On the other hand, Field Offices showed a preference



20 Semiannual Report to the Congress
                     Procurement and Related Activities




                          for using single award contracts, which denies contractors a fair
                          opportunity to compete for construction projects. Field Office personnel
                          apparently believed that a single award contract is quicker and easier to
                          use than a MAC, especially if the ordering official lacks technical
                          expertise to develop a scope of work or drawings. When a single award
                          contract is used, and drawings and/or specifications are not provided,
                          control and responsibility for completing the work in the most efficient and
                          economical way possible is relinquished to the contractor.

                          Our September 27, 2000 report recommended that the Commissioner,
                          Public Buildings Service:

                          • Issue instructions to all regional activities to phase out the use of
                            single-award indefinite delivery indefinite quantity (IDIQ) construction
                            contracts, whose scope of work, terms and conditions are redundant to
                            existing and concurrent multiple award construction contracts.

                          • Establish a system of internal controls that requires regional
                            management to regularly assess the adherence of ordering officials to
                            laws and regulations governing the use of multiple award IDIQ
                            construction contracts.

                          The Commissioner agreed with the recommendations in the report. The
                          audit is still in the resolution process.

                          Federal Supply Service (FSS)
                          Our review focused on the MAC orders placed with the Vehicle
Over 65 percent of        Acquisition and Leasing Services business line, under FSS’s Multi-Vendor
                          Program. This program allows customer agencies seeking to acquire
   the delivery           vehicles (from compact cars to large military vehicles) to choose among
 orders sampled           several contractors through large, competitive contracts that offer low
did not document          prices. In FY 1999, GSA, through its Multi-Vendor Program, bought
                          30,873 vehicles worth $496.3 million.
that vendors were
  provided a fair         Over 65 percent of the delivery orders sampled were not supported by
  opportunity to          documentation reflecting that vendors were provided a fair opportunity to
                          compete for these orders. One contractor received all 230 orders for
     compete.             heavy and medium trucks, valued at $12.7 million, although there are four
                          contractors selling this type of vehicle. Without documentation to support
                          the contractor selection, there is an appearance of a lack of competition.

                          The acquisitions were not being reported to the Federal Procurement
                          Data System (FPDS), which was developed by OMB to establish a
                          system for collecting, developing, and disseminating procurement data. If
                          the procurement data is inaccurate, the information provided by the
                          Federal Procurement Data Center is not a useful tool for measuring and
                          assessing the impact of Federal procurements on the nation’s economy,


                                                                          Office of Inspector General 21
                              Procurement and Related Activities




                                       nor the extent to which small and small disadvantaged business firms are
                                       sharing in Federal procurements.

                                       Most of the MACs reviewed did not include procedures for issuing
                                       delivery orders nor the selection criteria that a contracting officer should
                                       use when choosing a contractor. These procedures are outlined in the
                                       FAR and should have been made a part of the contracts.

                                       Our July 26, 2000 report recommended that the Commissioner, Federal
                                       Supply Service:

                                       • Establish new ordering procedures that will require customer agencies
                                         to review the GSA price lists to compare prices and products for each
                                         MAC contractor under the respective vehicle program that can meet
                                         the minimum requirements of the order.

                                       • Revise the Motor Vehicle Requisition Form, and the form for electronic
                                         orders, to require the ordering agency to confirm that it has followed
                                         the ordering procedures specified in the contract and the FAR prior to
                                         making the selection decision.

                                       • Post the ordering procedures in the MACs and price lists, on the FSS
                                         web site, and in the “Federal Vehicle Standards.”

                                       • Document the justification for contractor selections that GSA makes for
                                         customer agencies.

                                       • Develop a system to report delivery orders into FPDS.

                                       • Include in all Multi-Vendor Program contracts the FAR procedures for
                                         issuing delivery orders and the selection criteria that a contracting
                                         officer should use when choosing a contractor.

                                       The Commissioner agreed with the recommendations in the report. The
                                       audit is still in the resolution process.

                                       National Real Estate Services Contracts
                                       In 1995, GSA determined that potential savings could be realized by
                                       contracting out some lease administration services. However, it was not
                                       until July 1997, after Congress requested the Agency to explore
                                       commercial sources for real estate services, that GSA awarded national
                                       real estate services contracts in four geographic zones. The contracts
                                       were to help leverage GSA’s declining personnel resources by
                                       purchasing, through commercial real estate service firms, a wide variety
                                       of services, from administrative lease functions to the full acquisition of
                                       space.



22 Semiannual Report to the Congress
                    Procurement and Related Activities




                         Our review showed that the broker service contracts are meeting Agency
   GSA needs to          and customer requirements and providing GSA with an alternative to
                         offset its decreasing personnel resources. While the quality of the results
implement a cost         and timeliness of project completion were sufficient, we could not
     accounting          determine the cost-effectiveness of the leasing alternative because there
  system to help         is no mechanism in place to measure the internal cost of operations. We
                         believe that GSA needs to implement a cost accounting system to help
   determine the         determine the economic advantage of leasing services in-house versus
      economic           purchasing leasing services through commercial real estate firms. In
   advantage of          addition, to detect waste and inefficiency, measures should be developed
                         to determine the cost of internal operations.
 leasing services
 in-house versus         We also found that GSA intends to collect rebates of commissions paid
    purchasing           by landlords to the real estate firms. In private sector lease transactions,
                         it is common business practice for real estate firms to be paid a
 leasing services        commission for their services by property owners or landlords, regardless
       through           of whether they represent the interests of the landlords or the tenants.
 commercial real         The Agency anticipates duplicating this practice and believes that real
                         estate firms will not increase the rental rate to Federal customer agencies
    estate firms.        to compensate for the rebate payments. We believe, however, that the
                         landlords may pass this cost on to the tenants in the form of higher rent
                         rates, causing customer agencies’ space costs to rise, thereby increasing
                         their budgets and need for larger appropriations. GSA needs to evaluate
                         the effect of rebates on customers. It also needs to thoroughly assess
                         how these revenues will be accounted for.

                         Finally, we noted that realty specialists interpret the regional contracts
                         differently regarding the amount and type of work to be handled by the
                         contractors. In some regions, real estate firms supplement GSA staff by
                         performing only those transactions that the Agency cannot handle, other
                         regions give out routine responsibilities and keep everything else in-
                         house, and others perform oversight and allow real estate firms to handle
                         major projects. Each region should share its ideas, experiences, and
                         lessons learned, thereby developing best practices within GSA.

                         Whether GSA is recognized as the Government’s leading provider of
                         quality leasing services to Federal agencies will be determined by how
                         well the Agency prepares its leasing personnel to meet this new way of
                         doing business and prepares the brokers for dealing with Government
                         regulations.

                         Our September 28, 2000 report to the Commissioner, Public Buildings
                         Service, recommended that the Public Buildings Service:

                         • Develop a cost accounting system and controls that will enhance the
                           management decision-making process over the contract leasing
                           activity.


                                                                         Office of Inspector General 23
                              Procurement and Related Activities




                                       • Estimate the revenues to be generated by broker rebates and
                                         determine how the rebates will ultimately affect lease rates for
                                         customer agencies.

                                       • Develop performance measures to compare leasing activity costs to
                                         outputs.

                                       • Provide training to Agency realty specialists on administering contractor
                                         work, and provide training to contractors to familiarize them with
                                         Government operations and expectations.

                                       The Commissioner’s response did not specifically address the initial
                                       recommendation; rather it stated that lack of staff, not cost, was the
                                       dominant factor in the decision to contract for broker services. We
                                       reiterated our concern for the need to identify internal costs so that GSA
                                       will be more efficient and remain competitive. The Commissioner agreed
                                       in theory with the remaining recommendations. The report is still in the
                                       resolution process.

                                       Financial and Consulting Services
                                       Based on an inquiry from the Department of the Treasury’s (Treasury)
   GSA did not fulfill                 Office of Inspector General, we reviewed GSA’s actions related to the
  the Competition in                   award of several contracts used to provide financial and consulting
                                       services to the Community Development Financial Institution Fund of
    Contracting Act                    Treasury and the Housing Revitalization and Support Office of the
    requirement to                     Department of Defense (DoD). From 1996 through 1999, orders placed
    use competitive                    under these contract vehicles amounted to about $17 million.
     procedures in                     GSA used three different methods to obtain these services for the
      non-exempt                       customer agencies: placing open orders, ordering from existing Multiple
     procurements.                     Award Schedule (MAS) contracts, and issuing separate multiple award
                                       contracts. However, in doing so, GSA did not fulfill the Competition in
                                       Contracting Act requirement to use competitive procedures in all
                                       procurements for goods and services unless otherwise expressly
                                       authorized by statute.

                                       We found that at the behest of the customer agencies, GSA placed
                                       multiple open orders totaling over $1.8 million without a contract for
                                       services. There was no evidence that these services were competed.
                                       The Agency also issued purchase orders against existing MAS contracts.
                                       However, the projects, worth $5.9 million, were outside the scope of these
                                       contracts and should have been open to competition. Finally, the Agency
                                       issued six separate multiple award contracts for services, but did not
                                       provide each vendor with a fair opportunity to compete for task orders.
                                       Over $7 million of work was directed to one vendor without competition.




24 Semiannual Report to the Congress
                    Procurement and Related Activities




                          We also noted that the Agency provided services, such as evaluations of
                          financial systems and documentation of internal controls, that did not
                          involve real property management or other related activities and were
                          outside the authorized purposes of the Federal Buildings Fund.

                          We concluded that the two projects for which GSA provided services to
                          Treasury and DoD are no longer active and there was no lasting impact
                          on the Federal Buildings Fund, since the agencies reimbursed the Fund
                          for the services provided.

                          Our July 5, 2000 report to the Regional Administrator recommended
                          regional management should ensure that:

                          • Contracting officials promote and provide for competition required by
                            the FAR and contract clauses.

                          • Services provided through MAS contracts fall within the scope of the
                            contracts.

                          • Services provided to customer agencies are within the scope of the
                            Agency’s authority and fulfill the mission of the Federal Buildings Fund.

                          A responsive management action plan was provided for implementing the
                          report recommendations.

                          Telecommunications Fraud
                          The OIG is a principal participant in the New York Electronic Crimes Task
                          Force (NYECTF). NYECTF members include the Secret Service,
         Federal          Department of Defense, Department of Justice, New York City Police, and
 telecommunications       telecommunications industry representatives. The purpose of the task
 fraud investigations     force is to investigate telecommunications fraud, primarily involving
                          Federal facilities within the New York metropolitan area. GSA is the
      yield results:      principal provider of telecommunications services for these facilities. The
•arrests                  OIG is a permanent member of the NYECTF and frequently is the lead
•indictments              agency in the investigations.
•financial restitutions   The task force investigates several types of telecommunications fraud
•jail time                including cloned cellular telephones, stolen calling card numbers, and
                          intrusions of Private Branch Exchange (PBX) telephone switches.
                          Cellular telephones are cloned through the use of electronic devices that
                          capture the electronic signatures of the telephones. These signatures are
                          programmed into other cellular telephones, which are then used to
                          illegally make unauthorized telephone calls. Calling card numbers are
                          stolen either through the use of electronic devices, which intercept the
                          caller’s use of the number, or by “shoulder surfing” which is the simple act




                                                                          Office of Inspector General 25
                              Procurement and Related Activities




                                       of watching someone dial in the card numbers. PBXs, or telephone
                                       switches, are usually breached through their voice mail systems.
                                       Individuals may use their computers to locate and break into mailboxes
                                       that can be used to make outgoing telephone calls. In all of these
                                       scenarios, access is often sold to other individuals who make telephone
                                       calls around the world until the misuse is detected.

                                       During the month of August, two individuals plead guilty to charges
                                       related to fraudulent access of the White House Communications Agency
                                       (WHCA) telephone system. One individual, a U.S. Army Sergeant
                                       assigned to the WHCA plead guilty pursuant to a plea agreement in the
                                       U.S. District Court.

                                       The investigation disclosed that several individuals had used their
                                       telephone lines to illegally access the PBX of the WHCA. The
                                       investigation identified the Sergeant as having supplied at least one
                                       individual with access numbers to the WHCA PBX. These numbers
                                       allowed that individual to access and make telephone calls from the
                                       WHCA system.

                                       The OIG’s goal is to prevent such crimes by vigorously prosecuting
                                       offenders. Additionally, we are working with GSA management and its
                                       employees in efforts to prevent these crimes. In this reporting period, the
                                       OIG has made two arrests, indicted two individuals, and obtained five
                                       convictions related to our telecommunications fraud investigations. In
                                       one case, an individual was ordered to pay over $657,000 in restitution
                                       and sentenced to 24 months incarceration.

                                       Airport Manager Found Guilty of Fraud
                                       On May 31, 2000, the manager of a local airport was found guilty of the
                                       fraudulent acquisition and disposal of Federal surplus property.
                                       Sentencing is scheduled for November.

                                       This investigation was initiated when it was alleged that the manager
                                       fraudulently applied for eligibility, through the state agency in Illinois, to
                                       participate in the Federal Surplus Property Program as a public airport.
                                       This program is designed to give state agencies access to surplus
                                       Federal property. The investigation disclosed that the manager owned
                                       and operated a private airport that was not affiliated with any public entity.
                                       The investigation showed that the manager fraudulently used the mail,
                                       interstate carriers, and facsimiles to transmit documents relating to the
                                       acquisition and disposal of Federal surplus property.

                                       Specifically, it was revealed that the manager obtained a Convair C131F
                                       military surplus aircraft through the Federal Surplus Property Program in




26 Semiannual Report to the Congress
Procurement and Related Activities




     January 1996. The plane was sold by the subject in November 1997 to
     an air freight company for $75,000 plus costs for storage and repairs,
     which made the aircraft’s sale value about $85,000. The Government
     listed the fair market value of the aircraft as $1,000,000. The manager
     submitted a false sale document, containing a forged signature of a GSA
     regional official, to the air freight company to transfer title on the aircraft.
     In addition, he illegally received other property, including military vehicles
     and military helicopters, having an estimated fair market value totaling
     $200,000.




                                                        Office of Inspector General 27
                               Partnering with GSA Management




                                       Value-Added Assistance Services
                                       The OIG participates, on an ongoing basis, in a number of Agency task
                                       forces, committees, and working groups. This value-added professional
                                       assistance is provided to GSA management in the form of proactive
                                       advice and counsel while monitoring ongoing Agency initiatives. OIG
                                       representatives are available to advise management at the earliest
                                       possible opportunity of potential problems, help ensure that appropriate
                                       management controls are provided when reinventing Agency systems,
                                       and offer possible solutions when addressing complex financial issues.
                                       The demand for this partnership effort continues to be significant. Some
                                       of the areas in which the OIG has been involved this period include:

                                       • Commercial Acquisition Performance Measures Team – The OIG is
                                         participating in this team at the request of the Federal Supply Service
                                         (FSS). The team is being facilitated by a consulting firm and has been
                                         tasked with establishing a set of performance measures for commercial
                                         acquisition that support both the business line and corporate goals of
                                         FSS. While the task was substantially completed in FY 2000,
                                         performance goals should be revisited on a regular basis, so it is likely
                                         that the OIG will continue its involvement in this process.

                                       • GSA/DoD Billings/Payments Solution Team – GSA’s Office of Finance
                                         in one region requested our participation in a solution team comprised
                                         of representatives from the Department of Defense (DoD) and GSA.
                                         The team was initially formed to address the cash shortage in the
                                         Information Technology Fund, which is one of GSA’s three major funds.
                                         While previous meetings of team members focused on the Information
                                         Technology Fund, future meetings will address the Federal Buildings
                                         Fund and General Supply Fund. Team members have identified
                                         numerous action items that need to be resolved to expedite DoD
                                         payments to GSA. OIG involvement in team activities is expected to
                                         continue throughout FY 2001.

                                       • Construction of St. Louis Courthouse – In January 1997, after the
                                         prime contractor was terminated, the OIG joined in the Agency’s task
                                         force established to facilitate completion of construction of the Thomas
                                         Eagleton Courthouse in St. Louis, Missouri. Although the building was
                                         declared substantially complete in May 2000, the task force continued
                                         to meet weekly through June 2000 to discuss project issues and
                                         funding. The task force currently meets on an as-needed basis, but
                                         team members interact several times each week, requesting OIG input
                                         and assistance on audit matters and unresolved legal cases
                                         associated with the project. We anticipate that the task force will
                                         remain intact through January 2001, when the building is expected to
                                         approach full occupancy.



28 Semiannual Report to the Congress
Partnering with GSA Management




    • Formation of the Office of Enterprise Development – Our office meets
      with GSA management officials on a regular basis to provide advice
      and counsel regarding the formation of this Office within FSS. Specific
      input by the OIG has been requested regarding management controls
      and performance measures.

    The OIG participates in a number of committees and working groups that
    directly affect our ability to better add value to the Agency. For example:

    • The Information Technology (IT) Council comprised of the Chief
      Information Officers of the various GSA Services and Staff Offices.

    • GSA’s Data Warehousing Pilot working group helps chart the direction
      for data warehousing in the Agency.

    • The President’s Council on Integrity and Efficiency (PCIE) IT
      Roundtable discusses various IT audit activities throughout the
      Inspector General community.

    • The Procurement Executives Council is an interagency council
      consisting of Executive Branch procurement executives. The Inspector
      General is the PCIE representative to the Council.

    • The PCIE IT Security and Audit Workforce working groups help to
      determine what types of security audits the OIGs should perform and
      what types of actions can be taken to recruit and retain IT-qualified
      staff.

    • The PCIE Government Performance and Results Act working group
      discusses what the OIGs are doing and should be doing to most
      effectively assist their respective agencies in the implementation of the
      Act.

    • Our Assistant Inspector General for Auditing represents all civilian
      Government agencies on the Cost Accounting Standards Board, which
      promulgates, amends, and revises Cost Accounting Standards
      designed to achieve uniformity and consistency in cost accounting
      practices by individual Government contractors.

    Our direct participation with the Agency on task forces, committees, and
    working groups allows us to contribute our expertise and advice, while
    improving our own familiarity with the Agency’s rapidly changing systems.
    We also benefit by expanding our knowledge of new initiatives within the
    Federal community. We nevertheless maintain our ability to




                                                    Office of Inspector General 29
                               Partnering with GSA Management




                                       independently audit and review programs. Our participation in the task
                                       forces is typically as a non-voting advisory member. We maintain a strict
                                       policy of excluding staff members who have served on developmental
                                       task forces from subsequent audits of the same subject areas.




30 Semiannual Report to the Congress
                             Prevention Activities




                           In addition to detecting problems in GSA operations, the OIG is
                           responsible for initiating actions to prevent fraud, waste, and abuse and
                           to promote economy and efficiency.

Significant Preaward and   The OIG’s preaward audit program provides information to contracting
                           officers for use in negotiating contracts. The pre-decisional, advisory
Other Audits               nature of preaward audits distinguishes them from other audits. This
                           program provides vital and current information to contracting officers,
                           enabling them to significantly improve the Government’s negotiating
                           position and to realize millions of dollars in savings on negotiated
                           contracts. This period, the OIG performed preaward audits of
                           48 contracts with an estimated value of nearly $712 million. The audit
                           reports contained over $326 million in financial recommendations.

                           Four of the more significant Multiple Award Schedule contracts we
                           audited had projected Governmentwide sales totaling $577 million. The
                           audit findings recommended that $265 million in funds be put to better
                           use. The audits disclosed that these vendors offered prices to GSA that
                           were not as favorable as the prices other customers received from these
                           vendors.

                           We also audited several significant claims for increased costs that
                           contained proposed amounts totaling $58.1 million. We recommended
                           adjustments of $51.2 million. In an audit of a prime contractor and
                           several of its subcontractors, we advised the contracting officer that the
                           claims should be adjusted to eliminate unallowable and unsupported
                           material, labor, and indirect costs. In an audit of a claim for alleged extra
                           work and delays caused by the Government, we advised the contracting
                           officer that the contractor’s claim should be adjusted to eliminate
                           duplicate labor and overhead amounts and unsupported material costs.

Integrity Awareness        The OIG presents Integrity Awareness Briefings nationwide to educate
                           GSA employees on their responsibilities for the prevention of fraud and
                           abuse, and to reinforce employees’ roles in helping to ensure the integrity
                           of Agency operations.

                           This period, we presented 18 briefings attended by 256 regional
                           employees. These briefings explain the statutory mission of the OIG and
                           the methods available for reporting suspected instances of wrongdoing.
                           In addition, through case studies and slides, the briefings make GSA
                           employees aware of actual instances of fraud in GSA and other Federal
                           agencies and thus help to prevent their recurrence. The briefings have in
                           fact led to OIG investigations based on reports by GSA employees of
                           suspected wrongdoing.




                                                                            Office of Inspector General 31
                                        Prevention Activities




Employee Misconduct                    Former GSA Employee Sentenced for Accepting a
                                       Bribe
                                       An investigation by the OIG resulted in the conviction of a former GSA
                                       employee for accepting a bribe while working as a contracting officer’s
                                       assistant. Based on information received by the OIG Hotline concerning
                                       alleged contract discrepancies, investigators ultimately found that the
                                       former employee had accepted a bribe from a Government contractor for
                                       $17,000 worth of renovations to her personal residence. In return, the
                                       employee directed contract work to a specific company.

                                       The former employee was charged with accepting a bribe. She pled
                                       guilty in U.S. District Court to a one count information and was
                                       sentenced, on September 8, 2000, to 2 years supervised probation,
                                       30 days imprisonment, and 60 days home detention with electronic
                                       monitoring. Also, she was ordered to pay $17,000 in restitution. The
                                       employee retired from GSA while under investigation.

                                       The OIG continues to work with GSA management in an effort to stop
                                       illegal and unethical behavior.

                                       Former GSA Employee Sentenced for Misuse of
                                       VISA IMPAC Credit Card
                                       An OIG investigation resulted in the conviction of a GSA contracting
                                       officer for converting public funds to her personal use. The investigation
                                       was initiated when GSA management informed the OIG that questionable
                                       charges had been made to an International Merchant Purchase
                                       Authorization Card (IMPAC) assigned to one of its employees. The
                                       investigators found that approximately 100 charges totaling nearly
                                       $40,000 were made on the VISA IMPAC charge card at clothing, shoe,
                                       and jewelry stores.

                                       As a result of the investigation, the contracting officer was indicted on
                                       charges of converting public funds. She subsequently pled guilty in U.S.
                                       District Court to the charges and was sentenced in June 2000 to 5 years
                                       probation, 6 months in a halfway house with electronic monitoring,
                                       ordered to pay $39,980 in restitution, and ordered to disclose her felon
                                       status to current and future employers. She resigned from her position at
                                       GSA while under investigation.

                                       This investigation illustrates the importance of cooperation between GSA
                                       employees and the OIG. An alert GSA manager triggered the
                                       investigation. As a result of this case, vulnerabilities were identified by
                                       the OIG and brought to the attention of program managers.
                                       Consequently, controls were established that should help prevent a
                                       recurrence of this problem.


32 Semiannual Report to the Congress
                            Prevention Activities




                           GSA Employee Pleads Guilty to Felony Fraud
                           On August 10, 2000, a GSA procurement technician pled guilty in U.S.
                           District Court to felony fraud and related activity in connection with the
                           misuse of a Government credit card. The technician’s employment with
                           GSA was terminated. She is currently awaiting sentencing.

                           The investigation was initiated when fleet management reported to the
                           OIG that the Government was continuing to receive credit card bills on
                           the account of a Government vehicle sold at public auction. The
                           investigation found the employee had stolen 100 credit cards and had
                           used four cards to purchase approximately $18,000 worth of gasoline.

President’s Council on     In the semiannual report for April 1, 1999 - September 30, 1999, we
                           reported the details of a 2-year investigation by the OIG involving bribery
Integrity and Efficiency   and kickback schemes in connection with GSA maintenance and
Award                      construction projects at various Federal buildings and offices. The
                           investigation disclosed that six GSA employees had accepted bribes from
                           ten private contractors. The arrests of these employees and contractors
                           constituted one of the largest corruption prosecutions in GSA’s recent
                           history.

                           On September 29, 2000, the special agent in charge of this investigation
                           was presented with the President’s Council on Integrity and Efficiency
                           Investigative Excellence Award.

Hotline                    The OIG Hotline provides an avenue for concerned employees and other
                           concerned citizens to report suspected wrongdoing. Hotline posters
                           located in GSA-controlled buildings, as well as brochures, encourage
                           employees to use the Hotline. We also launched our FraudNet Hotline
                           platform to allow Internet reporting of suspected wrongdoing. During this
                           reporting period, we received 1,124 Hotline reports. Of these,
                           102 complaints warranted further GSA action, 20 warranted other Agency
                           action, and 1,002 did not warrant action.

Implementation             Responsibility for implementing appropriate corrective action as the result
                           of audit report recommendations rests with Agency management. The
Reviews                    OIG performs, on a selective basis, independent reviews of the
                           implementation actions to ensure that management is carrying out this
                           responsibility according to established milestones. This period, the OIG
                           performed two implementation reviews. In both of these reviews, we
                           found all of the recommendations had been implemented.

Financial Statements       The annual audit of the GSA consolidated financial statements was
                           performed by an independent public accounting (IPA) firm, with oversight
Audit                      and guidance from the OIG, as required by the Chief Financial Officers
                           Act of 1990. Unqualified opinions on the Agency’s financial statements



                                                                           Office of Inspector General 33
                                        Prevention Activities




                                       and on its system of internal accounting controls were issued in our
                                       October 1, 1999 - March 31, 2000 report.

                                       This period, the IPA issued its FY 1999 Management Letter Report, in
                                       which it identified three reportable conditions. Improvements are needed
                                       in:

                                       • GSA entity-wide system security management and oversight;
                                       • the development, implementation, and change controls over GSA’s
                                         system environment; and
                                       • controls over the integrity of rent and leasing data.

                                       None of these conditions are considered to be material weaknesses.




34 Semiannual Report to the Congress
Review of Legislation and Regulations




       The Inspector General Act of 1978 requires the OIG to review existing
       and proposed legislation and regulations to determine their effect on the
       economy and efficiency of the Agency’s programs and operations and on
       the prevention and detection of fraud and mismanagement.

       During this period, the OIG reviewed 309 legislative matters and
       22 proposed regulations and directives. The OIG addressed the following
       legislative items:

       • Testimony on H.R. 809, the Federal Protective Service Reform Act of
         2000. On September 28, 2000, the Deputy Inspector General (IG)
         testified before the Senate Committee on the Environment and Public
         Works, Subcommittee on Transportation and Infrastructure, on H.R.
         809, the Federal Protective Service (FPS) Reform Bill. The bill, among
         other things, would reorganize FPS as a separate service within GSA,
         impose certain minimum law enforcement experience requirements on
         the positions of FPS head and FPS regional directors, require that FPS
         issue minimum suitability criteria for contract guards, and clarify police
         powers of Federal Protective Officers as well as FPS criminal
         investigators. In his testimony, the Deputy IG noted that improvements
         were needed to FPS’s structure to achieve a direct chain of command
         and line of authority between the FPS headquarters in Washington,
         D.C. and FPS field personnel in order to ensure more effective
         oversight of the use of law enforcement authorities, better development
         and implementation of training, and consistent application of policies
         and procedures within FPS. He also expressed the view, though, that
         a direct chain of command could be achieved without removing FPS
         from the Public Buildings Service.

         The Deputy IG further testified in support of the bill’s requirements for
         the FPS head and regional directors to have certain minimum law
         enforcement experience and noted the OIG’s support for clarifying the
         police powers for FPS special police and criminal investigators.
         Finally, the Deputy IG noted that, with respect to contract guards, OIG
         work had indicated that inconsistent implementation of suitability
         criteria and training requirements, as well as inadequate resources for
         proper contract oversight, were the causes of problems in the program.

       • Statutory Law Enforcement Authority for OIGs. Our Assistant Inspector
         General for Investigations, as part of a group representing the IG
         community, participated in dozens of Congressional briefings relating to
         an initiative to develop and enact statutory law enforcement authority
         for OIG special agents. Specifically, the group (on behalf of the IG
         community) discussed a draft measure, supported by the Department
         of Justice (DoJ) and OMB, and recently introduced as S. 3144 by
         Senator Thompson, to give 23 larger OIGs statutory law enforcement


                                                       Office of Inspector General 35
                           Review of Legislation and Regulations




                                         authority. These same OIGs currently all operate under an annual
                                         Memoranda of Understanding (MOU) with the DoJ which entitle
                                         qualified and trained special agents to be deputized by the United
                                         States Marshals Service. The proposal would make law enforcement
                                         authority for these OIGs more certain and permanent and would
                                         alleviate the somewhat burdensome annual renewal process for the
                                         current MOUs. Further, the proposal would retain DoJ oversight
                                         mechanisms required under the current MOUs, while adding periodic
                                         peer reviews of OIGs’ exercise of these authorities. The briefings
                                         included, among other things, information and statistics on OIG
                                         investigations and activities that support the need for statutory law
                                         enforcement authority.

                                       • S. 3030, Fraud Recovery Audit Act. We provided comments to GSA
                                         and OMB on S. 3030, the proposed Fraud Recovery Audit Act, the
                                         Senate counterpart to H.R. 1827, upon which this Office had already
                                         provided input to both OMB and the House Committee on Government
                                         Reform. Like the House bill, the Senate bill would mandate that
                                         agency heads institute annual recovery audits of payment activities of
                                         their agencies if those activities exceed $500 million. We strongly
                                         endorsed the bill’s intent, which is to require agencies to more
                                         aggressively identify and collect overpayments, and to address internal
                                         systemic problems leading to such overpayments. The principal
                                         concern we raised was with the Senate bill’s deletion of three important
                                         provisions in the House version which would have required that the
                                         recovery audit contractor report to the IG of that agency, in addition to
                                         the agency head, on fraud or other criminal activity discovered in the
                                         course of a recovery audit and also report on significant payment
                                         errors and certain conditions giving rise to payment errors. We pointed
                                         out that the fraud reporting requirement was necessary because the
                                         IGs are statutorily responsible for investigating and reporting to the DoJ
                                         on suspected violations of criminal law related to agency programs.
                                         We also noted that deleting the other reporting requirements would
                                         hamper the ability of the IGs to provide effective oversight of systemic
                                         weaknesses.

                                       • Draft Reports Consolidation Act of 2000. Our Office provided
                                         comments to GSA and OMB on the draft bill “Reports Consolidation Act
                                         of 2000” which would allow agency heads, with OMB concurrence, to
                                         combine certain statutorily-mandated financial or performance
                                         management reports into a consolidated report to be submitted by
                                         March 1 of each year. The bill would also require OIGs to summarize
                                         their agencies’ most serious management and performance
                                         challenges, and to provide a brief assessment of the agency’s efforts
                                         and progress in addressing those challenges as part of this same
                                         report. We noted our support for the bill and our belief that combining



36 Semiannual Report to the Congress
Review of Legislation and Regulations




         the various reports would result in more useful and effective reporting.
         We also specifically supported the requirement for an IG assessment
         as part of the report, although we noted that timing problems could
         arise with the preparation of the report. We suggested that
         consideration be given to changing the report’s due date to a date later
         in the year.

       • S. 870, the Inspector General Act Amendments of 1999. We provided
         comments to GSA and OMB on S. 870, the Inspector General Act
         Amendments of 1999. We generally supported the bill, which makes a
         number of management-related changes to OIGs. We did note,
         however, our concern with one aspect of the proposed external review
         requirement. Although we support external reviews of OIGs as a
         general matter, we noted that the bill, as written, only allows for the
         General Accounting Office (GAO) or “an appropriate private entity” to
         conduct such reviews. Generally, we suggested that it would also be
         appropriate to have peer OIGs perform these reviews, and that the bill
         should be modified accordingly.

         We also suggested additional OIG-related initiatives that could be
         incorporated into the bill, including statutory law enforcement authority
         for OIG special agents who currently operate under a MOU with the
         DoJ, and granting OIGs access to DoJ’s Office of Legal Counsel in
         cases where agency General Counsels and OIGs disagree on legal
         questions which may significantly impact an agency’s programs or
         operations.

       • H.R. 220, Freedom and Privacy Restoration Act of 1999. We provided
         our comments on H.R. 220, a bill that would restrict Federal agencies’
         use of social security numbers for other than tax or narrow social
         security-related benefits purposes and restrict the use of other
         identifiers or identification standards by Federal agencies in certain
         other contexts. We commented that the bill would have far-reaching
         effects on Government agencies that use identifiers to administer
         programs. We also noted our specific concerns with the bill’s impact
         on our Office’s operations, especially certain law enforcement tools,
         such as criminal records indices, that utilize social security numbers or
         other identifiers. We suggested that strict enforcement of existing
         privacy statutes might more narrowly address any problems regarding
         misuse of personal information.

       In addition, the OIG provided comments on the following proposed
       regulations:

       • Department of Justice Guidance on Electronic Processes. This Office
         provided comments to the DoJ on its draft guidance on “Legal



                                                       Office of Inspector General 37
                           Review of Legislation and Regulations




                                         Considerations in Designing and Implementing Electronic Processes.”
                                         We expressed our view that, overall, the guidance presented a
                                         thoughtful, comprehensive listing of legal issues that might arise when
                                         Federal agencies convert paper-based processes to electronic ones.
                                         We suggested inclusion of two additional topics in the guidance,
                                         including a discussion on the need for periodic testing of electronically
                                         stored data for indicia of data corruption, and a discussion of the
                                         Federal Rules of Evidence as they relate to the use of electronic
                                         records in court.

                                       • GSA Order on Internal Personal Property Control. We reviewed an
                                         internal GSA directive that proposed to make certain changes to the
                                         way GSA controls and accounts for internal personal property. Overall,
                                         we had no objection to the changes, although we noted that an
                                         inconsistency existed within the order relating to the planned
                                         elimination of a dollar threshold for designating accountable items.
                                         Such items would no longer automatically be subject to extra controls
                                         solely because of their dollar value. We suggested that other sections
                                         of the order be revised to consistently reflect this modified definition.

                                       • OMB and CFO Council 2000 Federal Financial Management Report.
                                         We provided comments to GSA and OMB on the 2000 Federal
                                         Financial Management Report, which was drafted by OMB and the
                                         CFO Council in response to certain statutory reporting requirements.
                                         We generally commended the report’s efforts to focus attention on
                                         improving financial management in the Federal Government. However,
                                         we noted our concerns with a proposal, in an attached list of CFO-
                                         suggested proposals to alter CFO authorities, to establish audit
                                         committees to direct the preparation of agencies’ annual financial
                                         statement audits. We noted our belief that establishing such
                                         committees and requiring a direct CFO presence could only diminish
                                         the independence of the audit process by providing the CFO, the entity
                                         with responsibility for the agency’s financial statement, with a voice in
                                         choosing the auditor and overseeing the audit of the statement. We
                                         further noted that our Office currently works in a collaborative fashion
                                         with the GSA CFO’s Office as a matter of practice, and that
                                         establishment of a formal committee mechanism is unnecessary to
                                         providing timely, high-quality financial statement audits.

                                       • OMB Draft Memorandum on Inter-Agency Sharing of Personal Data.
                                         We provided comments to OMB on its Draft Memorandum on Inter-
                                         Agency Sharing of Personal Data. We noted our general agreement
                                         that data sharing between agencies can be a critical tool for improving
                                         the efficiency of Government programs. We also raised concerns,
                                         though, that there were inconsistencies between the Draft
                                         Memorandum and the provisions of the Privacy Act of 1974 and the



38 Semiannual Report to the Congress
Review of Legislation and Regulations




         Computer Matching and Privacy Protection Act of 1988, particularly in
         regards to the treatment of routine uses which now allow for disclosure
         of privacy information to other Federal agencies and the provision for a
         cost-benefit assessment which is not now found in the Privacy Act.

       • GSA Draft Instructional Letter – Second Party Access to Electronic Mail
         Files. We raised a number of concerns about a proposed GSA
         Instructional Letter expanding on the Agency’s e-mail policy. In
         particular, we noted that the draft Instructional Letter did not make it
         clear that there is no expectation of privacy in any activity on
         Government computers. We also pointed out that, contrary to what the
         Letter proposed, GSA policy permits systems administrators to monitor
         e-mail usage, and that the Electronic Communications Privacy Act
         allows for access to e-mail under limited circumstances.




                                                      Office of Inspector General 39
                      Statistical Summary of OIG Accomplishments




                                       Audit Reports Issued
                                       The OIG issued 100 audit reports during this reporting period. The
                                       100 reports contained financial recommendations totaling $338,966,257,
                                       including $326,964,130 in recommendations that funds be put to better
                                       use and $12,002,127 in questioned costs. Due to GSA’s mission of
                                       negotiating contracts for Governmentwide supplies and services, most of
                                       the savings from recommendations that funds be put to better use would
                                       be applicable to other Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring
                                       management decisions during this period, as well as the status of those
                                       audits as of September 30, 2000. Two reports more than 6 months old
                                       were awaiting management decisions as of September 30, 2000; both of
                                       them were preaward audits, issued before February 10, 1996, which are
                                       not subject to the 6-month management decision requirement. Table 1
                                       does not include 2 reports issued to another agency this period. Table 1
                                       also does not include 5 reports excluded from the management decision
                                       process because they pertain to ongoing investigations.



                       Table 1. Management Decisions on OIG Audits
                                                                         Reports with        Total
                                                         No. of            Financial       Financial
                                                        Reports        Recommendations Recommendations

    For which no management decision
    had been made as of 4/1/00
      Less than six months old                             43                 30               $ 20,725,017
      Six or more months old                               19                 13                 11,123,724
    Reports issued this period                             98                 60                338,966,257
    TOTAL                                                 160                103               $370,814,998
    For which a management decision
    was made during the reporting period
      Issued prior periods                                 60                 42               $ 31,645,398
      Issued current period                                56                 31                 59,085,256
    TOTAL                                                 116                 73               $ 90,730,654
    For which no management decision
    had been made as of 9/30/00
      Less than six months old                             42                  29              $279,881,001
      Six or more months old                                2                   1                   203,343
    TOTAL                                                  44                  30              $280,084,344




40 Semiannual Report to the Congress
            Statistical Summary of OIG Accomplishments




                           Management Decisions on Audit Reports with
                           Financial Recommendations
                           Tables 2 and 3 present the audits identified in Table 1 as containing
                           financial recommendations by category (funds to be put to better use or
                           questioned costs).




          Table 2. Management Decisions on OIG Audits with
          Recommendations that Funds be Put to Better Use

                                                  No. of                      Financial
                                                 Reports                  Recommendations

For which no management decision had
been made as of 4/1/00
  Less than six months old                           24                    $ 19,384,347
  Six or more months old                             13                      11,123,724
Reports issued this period                           43                     326,964,130
TOTAL                                                80                    $357,472,201
For which a management decision was
made during the reporting period
  Recommendations agreed to by
  management based on proposed
  •management action                                 —                     $ 75,573,620
  •legislative action                                —                               —
  Recommendations not agreed to
  by management                                      —                        4,617,212
TOTAL                                                53                    $ 80,190,832
For which no management decision had
been made as of 9/30/00
  Less than six months old                           26                    $ 277,078,026
  Six or more months old                              1                          203,343
TOTAL                                                27                    $ 277,281,369




                                                                         Office of Inspector General 41
                      Statistical Summary of OIG Accomplishments




                       Table 3. Management Decisions on OIG Audits
                                  with Questioned Costs

                                                No. of               Questioned
                                               Reports                 Costs

          For which no management decision
          had been made as of 4/1/00
            Less than six months old               6            $ 1,340,670
            Six or more months old                 0                      0
          Reports issued this period              18             12,002,127
          TOTAL                                   24            $13,342,797
          For which a management decision
          was made during the reporting
          period
            Disallowed costs                      —             $ 6,945,716
            Costs not disallowed                  —               3,594,106
          TOTAL                                   21            $10,539,822
          For which no management decision
          had been made as of 9/30/00
            Less than six months old               3            $ 2,802,975
            Six or more months old                 0                      0
          TOTAL                                    3            $ 2,802,975




42 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments




                       Investigative Workload
                       The OIG opened 139 investigative cases and closed 104 cases during
                       this period. In addition, the OIG received and evaluated 62 complaints
                       and allegations from sources other than the Hotline that involved GSA
                       employees and programs. Based upon our analyses of these complaints
                       and allegations, OIG investigations were not warranted.

                       Referrals
                       The OIG makes criminal referrals to the Department of Justice or other
                       authorities for prosecutive consideration and civil referrals to the Civil
                       Division of the Department of Justice or U.S. Attorneys for litigative
                       consideration. The OIG also makes administrative referrals to GSA
                       officials on certain cases disclosing wrongdoing on the part of GSA
                       employees, contractors, or private individuals doing business with the
                       Government.


                   Table 4. Summary of OIG Referrals

Type of Referral                      Cases                                 Subjects
Criminal                                 45                                    78
Civil                                    14                                    16
Administrative                         109                                    161
TOTAL                                  168                                    255

                       In addition, the OIG made 6 referrals to other Federal activities for further
                       investigation or other action and 47 referrals to GSA officials for
                       information purposes only.

                       Actions on OIG Referrals
                       Based on these and prior referrals, 25 cases (36 subjects) were accepted
                       for criminal prosecution and 13 cases (15 subjects) were accepted for
                       civil litigation. Criminal cases originating from OIG referrals resulted in
                       25 indictments/informations and 23 successful prosecutions. OIG civil
                       referrals resulted in 13 cases being accepted for civil action and 6 case
                       settlements. Based on OIG administrative referrals, management
                       debarred 32 contractors, suspended 25 contractors, and took
                       20 personnel actions against employees.




                                                                        Office of Inspector General 43
                      Statistical Summary of OIG Accomplishments




                                       Monetary Results
                                       Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                       and restitutions payable to the U.S. Government as a result of criminal
                                       and civil actions arising from OIG referrals.

                                       In addition, the OIG had administrative recoveries of $1,848,825 during
                                       the course of its investigations.




                             Table 5. Criminal and Civil Recoveries
                                                            Criminal                        Civil

           Fines and Penalties                          $    93,375                $         —

           Settlements and Judgments                          —                        35,388,100

           Restitutions                                     996,503                          —

           TOTAL                                        $1,089,878                 $35,388,100




44 Semiannual Report to the Congress
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                  conservation accomplishments in position descriptions
process, the GSA Office of the Chief Financial Officer,     and performance evaluations of employees. They are
Office of the Controller, is responsible for tracking the   scheduled for completion by November 15, 2000.
implementation of audit recommendations after a
management decision has been reached. That office           Real Property Management
furnished the following status information.                 Information System
Nineteen audits highlighted in prior reports to the         Period First Reported: October 1, 1999 to March 31, 2000
Congress have not yet been fully implemented; all are       The review evaluated the System for Tracking and
being implemented in accordance with currently              Administering Real Property (STAR). The report
established milestones.                                     contained four recommendations; none has been
                                                            implemented.
Environmental Management System
Period First Reported: October 1, 1999 to March 31, 2000    The recommendations include identifying a total set of
The review focused on the management of the                 capabilities needed in STAR, developing a STAR
environmental program to address conditions in GSA-         project plan, establishing a project management team,
controlled space. The report contained three recom-         and working to complete STAR. They are scheduled
mendations; none has been implemented.                      for completion between March 15 and May 15, 2001.

The recommendations include establishing a frame-           Finance Center Payments
work to evaluate and coordinate regional activities,
                                                            Period First Reported: October 1, 1999 to March 31, 2000
expanding the focus of the program, and prioritizing
projects on a nationwide basis. They are scheduled for      The review focused on management controls for pay-
completion between November 15, 2000 and                    ments for purchase cards and fleet card transactions.
March 15, 2001.                                             The report contained eight recommendations; four
                                                            have been implemented.
Contract Security Guard Program
Period First Reported: October 1, 1999 to March 31, 2000    The recommendations involve requiring refresher train-
The review assessed the Contract Security Guard             ing, using Pegasys for card transactions approval and
Program. The report contained eight recommenda-             reconciliation, increasing use of point of sale controls,
tions; six have been implemented.                           and ensuring personnel follow-up on improper fleet
                                                            card transactions. They are scheduled for completion
The recommendations include developing a national           between October 15 and December 15, 2000.
training program, witnessing firearm qualification ses-
sions, and tracking qualification status of contract        Assessing Acquisition System
guards. They are scheduled for completion by                Implementation
October 15, 2000.
                                                            Period First Reported: April 1, 1999 to September 30, 1999
Energy Conservation                                         The review evaluated a commercially available elec-
Period First Reported: October 1, 1999 to March 31, 2000    tronic acquisition system intended to improve the
The review assessed one region’s efforts to conserve        acquisition process. The report contained five recom-
energy. The report contained four recommendations;          mendations; four have been implemented.
two have been implemented.
                                                            The remaining recommendation involves developing
The recommendations include enhancing the current           performance measures for the acquisition system. It is
energy plan, and recognizing energy efficiency and          scheduled for completion by October 15, 2000.



                                                                                         Office of Inspector General 47
                    Appendix I–Significant Audits from Prior Reports




Performance-Based Buildings                                  controls for remote access to LANs, and providing
Services Contracts                                           security awareness training. They are scheduled for
                                                             completion between October 15, 2000 and January 15,
Period First Reported: April 1, 1999 to September 30, 1999
                                                             2001.
The review evaluated the nationwide program for
mechanical services. The report contained six                Access to Building Design Plans
recommendations; five have been implemented.                 Period First Reported: October 1, 1998 to March 31, 1999

The remaining recommendation involves establishing a         The review focused on the accessibility to the general
national quality assurance program. It is scheduled for      public of building plans. The report contained two
completion by January 15, 2001.                              recommendations; one has been implemented.

Controls over RWA Expenditures                               The remaining recommendation involves sharing the
                                                             results of the review with appropriate Agency officials.
Period First Reported: April 1, 1999 to September 30, 1999
                                                             It is scheduled for completion by October 15, 2000.
The review assessed the controls over GSA’s
Reimbursable Work Authorization process. The report          Security Standards for New Buildings
contained two recommendations; neither has been              Period First Reported: October 1, 1998 to March 31, 1999
implemented.
                                                             The review evaluated security standards for new and
The recommendations involve reviewing financial              renovated Federal buildings. The report contained two
data; and adjusting controls, updating policies, and         recommendations; neither has been implemented.
providing training. They are scheduled for completion
by January 15, 2002.                                         The recommendations include developing a policy that
                                                             defines roles and responsibilities of individuals
Evaluating the Industrial Funding Fee                        involved in building standards, and creating security
                                                             standards for newly acquired leased space. They are
Period First Reported: April 1, 1999 to September 30, 1999
                                                             scheduled for completion between January 15 and
The review assessed the progress GSA was making to           August 15, 2001.
set and collect its industrial funding fee. The report
contained five recommendations; two have been                Security Enhancements in Federal
closed and two have been implemented.                        Buildings
                                                             Period First Reported: April 1, 1998 to September 30, 1998
The remaining recommendation involves improving
oversight of the process by developing reports to            The review evaluated GSA’s program for upgrading
improve collection efforts, prioritize work, and assess      security in Federal buildings. The report contained six
costs for administration. It is scheduled for completion     recommendations; five have been implemented.
by March 15, 2001.
                                                             The remaining recommendation involves reporting cost
Local Area Network Security Risks                            data for future countermeasures. It is scheduled for
                                                             completion by March 15, 2001.
Period First Reported: April 1, 1999 to September 30, 1999
The review focused on the local area network (LAN)           Travel Management Program Funding
security. The report contained four recommendations;         Fee
none has been implemented.
                                                             Period First Reported: April 1, 1998 to September 30, 1998
The recommendations include developing LAN secur-            The review assessed GSA’s Travel Management
ity plans, establishing processes for managing               Program funding fee. The report contained seven
accounts and contingency planning, identifying               recommendations; six have been implemented.


48 Semiannual Report to The Congress
                    Appendix I–Significant Audits from Prior Reports




The remaining recommendation involves establishing           The recommendation involves the need to automate
one industrial funding fee for all customers. It is sched-   key activities of the contracting process. It is sched-
uled for completion by October 15, 2000.                     uled for completion by December 15, 2000.

Information Systems Security                                 Federal Protective Service
Period First Reported: April 1, 1998 to September 30, 1998   Investigation Office
The review assessed the security measures of six             Period First Reported: April 1, 1997 to September 30, 1997
major Internet and Intranet GSA applications. The            The evaluation focused on a review of the Federal
report contained four recommendations; two have              Protective Service’s criminal investigation activities.
been implemented.                                            The report contained five recommendations; four have
                                                             been implemented.
The remaining recommendations include specifying
roles and responsibilities to ensure security and basing     The remaining recommendation involves establishing
IT security decisions on risk assessments. They are          measurable criminal investigations program perform-
scheduled for completion between November 15 and             ance standards. It is scheduled for completion by
December 15, 2000.                                           January 15, 2001.
Megacenter Dispatch Services                                 Debarment Program
Period First Reported: October 1, 1997 to March 31, 1998     Period First Reported: October 1, 1996 to March 31, 1997
The review focused on GSA’s plans to consolidate             The review identified opportunities for improving
security control centers into four megacenters. The          the Debarment Program. The report contained two
report contained four recommendations; none has              recommendations; one has been implemented.
been implemented.
                                                             The remaining recommendation involves modifying
The recommendations include developing alternate             the new contractor information system. It is scheduled
access procedures, developing contingency plans to           for completion by May 15, 2001.
continue the dispatch function during natural disasters,
upgrading alarm systems, and implementing a preven-
tive alarm maintenance program. They are scheduled
for completion by June 15, 2001.

Contract Workload Management
Period First Reported: October 1, 1997 to March 31, 1998
The review identified opportunities for improving
workload management. The report contained one
recommendation; it has not yet been implemented.




                                                                                          Office of Inspector General 49
                              Appendix II–Audit Report Register

                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put To      (Unsupported)
Report         Number                   Title                               Better Use         Costs


(Note: Because some audits pertain to contracting award or actions which
have not yet been completed, the financial recommendations to these
reports are not listed in this Appendix.)

PBS Management Consulting Reviews
05/25/00       A000964         Management Consulting Review: Howard
                               University Contract Deliverables, Contract
                               Number GS-02P-93-CUC-0071

PBS Internal Audits
05/16/00       A000984         Review of FPS Efforts to Resolve Contract
                               Guard Service Deficiencies in New Jersey

07/05/00       A995317         Audit of Consulting Services Provided by
                               PBS Through Reimbursable Work
                               Authorizations

08/18/00       A001004         Review of Procurements Made by the Utah
                               Public Buildings Service Field Office

08/21/00       A000913         Management Control Review: Public
                               Buildings Service, Office of Property
                               Disposal, Controls Over the Proceeds from
                               Sale of Surplus Real Property

09/15/00       A000902         Audit of PBS’s Management of Building
                               Account Activities

09/18/00       A000861         Advisory Review of PBS Construction
                               Contract Clauses

09/19/00       A000970         Review of GSA’s Building Access Controls
                               at the Bannister Road Complex in Kansas
                               City, Missouri

09/27/00       A995309         Audit of Orders Placed by the Public
                               Buildings Service Against Multiple Award
                               Construction Contracts

09/28/00       A000810         Audit of the Public Buildings Service’s
                               National Real Estate Services Contracts




50 Semiannual Report to The Congress
                      Appendix II–Audit Report Register

                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put To      (Unsupported)
Report     Number              Title                                Better Use         Costs


PBS Contract Audits
04/04/00   A000943    Preaward Audit of a Claim for Increased
                      Costs:   Cali-U.S.A.   Acoustics,  Inc.,
                      Subcontractor to Ray Wilson Company,
                      Ronald Reagan Federal Building & U.S.
                      Courthouse, Contract Number GS-09P-95-
                      KTC-0012

04/06/00   A000952    Postaward Audit of Cost or Pricing Data:                         $437,181
                      CMR Construction, Inc., Contract Number
                      GS06P99GZC0303

04/07/00   A000962    Postaward Audit of Sole Source Contract:      $380,458
                      Program and Construction Management
                      Group, Contract Number GS11P99ZCC0114

04/17/00   A000889    Preaward Audit of a Claim for Increased
                      Costs: Italian Marble and Tile Company,
                      Inc., Subcontractor to Ray Wilson Company,
                      Ronald Reagan Federal Building & U.S.
                      Courthouse, Santa Ana, California, Contract
                      Number GS-09P-95-KTC-0012

05/01/00   A000987    Preaward Audit of Architect and Engineering
                      Services Contract: Teng & Associates, Inc.,
                      Contract Number GS05P00GAD0191

05/02/00   A000918    Preaward Audit of a Claim for Increased
                      Costs:   Morrow-Meadows Corporation,
                      Subcontractor to Ray Wilson Company,
                      Ronald Reagan Federal Building & U.S.
                      Courthouse, Santa Ana, California, Contract
                      Number GS-09P-95-KTC-0012

05/08/00   A000944    Preaward Audit of a Claim for Increased
                      Costs: Columbia Fabricating Company, Inc.,
                      Subcontractor to Ray Wilson Company,
                      Ronald Reagan Federal Building & U.S.
                      Courthouse, Santa Ana, California, Contract
                      Number GS-09P-95-KTC-0012




                                                                         Office of Inspector General 51
                              Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put To      (Unsupported)
Report         Number                   Title                                Better Use         Costs


05/11/00       A000950         Preaward Audit of a Claim for Increased
                               Costs: Moon and Crockett Plumbing
                               Corporation, Subcontractor to Ray Wilson
                               Company, Ronald Reagan Federal
                               Building & U.S. Courthouse, Santa Ana,
                               California, Contract Number GS-09P-95-
                               KTC-0012

05/11/00       A000993         Preaward Audit of a Claim: Trataros
                               Construction, Inc., Contract Number GS-
                               02P-96-DTC-0033

05/12/00       A000956         Preaward Audit of Architect and
                               Engineering Services Contract: G.H.
                               Forbes Associates Architects, P.C.,
                               Contract No. GS-05P-99GAD-0118

05/17/00       A001005         Preaward Audit of Supplemental Architect
                               and Engineering Services Contract: HLM
                               Design USA, Inc., Solicitation Number GS-
                               05P-99-GAD-0191

05/18/00       A000961         Preaward Audit of a Claim for Increased
                               Costs:    Washington     Iron    Works,
                               Subcontractor to Ray Wilson Company,
                               Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California,
                               Contract Number GS-09P-95-KTC-0012

05/26/00       A000853         Preaward Audit of a Claim for Increased
                               Costs: Ray Wilson Company, Ronald
                               Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California,
                               Contract Number GS-09P-95-KTC-0012

05/31/00       A000990         Interim Postaward Audit of Cost or Pricing    $368,481        $126,563
                               Data: Venetian Terrazzo Co., Inc. & The
                               Missouri Terrazzo Co., Inc., Joint Venture,
                               Contract Number GS06P99GZC0310

06/01/00       A000971         Audit of Claims for Increased Costs:
                               Midwest Curtainwalls, Inc., The Federal
                               Triangle Project




52 Semiannual Report to The Congress
                     Appendix II–Audit Report Register

                                                                              Financial
                                                                          Recommendations
                                                                      Funds to        Questioned
Date of    Audit                                                     Be Put To      (Unsupported)
Report     Number             Title                                  Better Use         Costs


06/08/00   A000996   Audit of Cafeteria Food Services Contract:
                     Pier 5 Services d/b/a Sebastian’s Catering,
                     Contract Number GS01P97BWC0058

06/09/00   A000953   Preaward Audit of Architect and Engineering
                     Services Contract: SHG, Incorporated,
                     Contract No. GS-05P-99GAD0118

06/27/00   A001008   Limited Scope Preaward Audit of Cost or
                     Pricing Data: Armada/Hoffler Development
                     Company, Lease Number GS-11B-80510

07/10/00   A000886   Preaward Audit of a Claim:         Reliable
                     Contracting, Inc., Contract Number GS-02P-
                     91-CUC-0045

07/13/00   A000945   Postaward Audit of Contract Closeout:
                     Allstate Security & Investigative Services,
                     Inc., Contract Number GS05P97GCD0001

07/13/00   A000966   Audit of Small Business Subcontracting Plan:
                     Coken Company, Inc., Contract Number GS-
                     02P-95-DTC-0014(N)

07/19/00   A000940   Preaward Audit of a Claim: Coken Company
                     Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-
                     DTC-0014

07/27/00   A001028   Limited Review of Contract Extension Claim:
                     International Services, Inc., Contract Number
                     GS-02P-94-CTD-0141

07/28/00   A000916   Preaward Audit of a Claim for Increased
                     Costs: Raymond Interior Systems, Sub-
                     contractor to Ray Wilson Company,
                     Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract
                     Number GS-09P-95-KTC-0012

07/28/00   A001065   Preaward Audit of Architect-Engineering
                     Services Term Contract: Robert M. Stafford,
                     Inc., Solicitation Number GS-04P-99-EWD-
                     0138



                                                                          Office of Inspector General 53
                              Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put To      (Unsupported)
Report         Number                   Title                                Better Use         Costs


07/28/00       A001017         Preaward Audit of Cost or Pricing Data:
                               Columbia Curb & Gutter Co., Solicitation
                               Number GS06P00GYC0012(N)

08/01/00       A001001         Preaward Audit of a Claim for Increased
                               Costs: Aztec Fire Protection, Inc., Sub-
                               contractor to Ray Wilson Company,
                               Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Con-
                               tract Number GS-09P-95-KTC-0012

08/02/00       A001049         Postaward Audit of Architect and
                               Engineering Services Contract: URS
                               Greiner Woodward Clyde, Contract
                               Number GS05P99GBC0033

08/03/00       A001057         Preaward Audit of Architect-Engineer
                               Design Services Contract: Bargmann
                               Hendrie + Archetype, Inc., Solicitation
                               Number GS-01P-99-BZC-0020

08/17/00       A001073         Preaward Audit of Architect and
                               Engineering Services Contract: Oudens +
                               Knoop Architects, PC, Contract Number
                               GS11P00MQD0011

08/17/00       A001068         Preaward Audit of Architect and
                               Engineering Services Contract: MTFA
                               Architecture, Inc., Solicitation Number GS-
                               11P00MQD0011

08/22/00       A001042         Audit of Billings under Contract Number                       $109,450
                               GS06P99GZC0305: Corrigan Company
                               Mechanical Contractors

08/22/00       A001074         Preaward Audit of Engineering Services
                               Contract: Shooshanian Engineering, Inc.,
                               Solicitation Number GS-01P-99-BZC-0020

08/23/00       A001018         Preaward Audit of a Claim for Increased
                               Costs: Borbon, Inc., Subcontractor to Ray
                               Wilson Company, Ronald Reagan Federal
                               Building & U.S. Courthouse, Santa Ana,
                               California, Contract Number GS-09P-95-
                               KTC-0012


54 Semiannual Report to The Congress
                     Appendix II–Audit Report Register

                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put To      (Unsupported)
Report     Number             Title                                Better Use         Costs


08/24/00   A000941   Preaward Audit of a Claim: Centrifugal/
                     Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract
                     Number GS-02P-95-DTC-0014

08/25/00   A001069   Preaward Audit of Architect-Engineering
                     Services Term Contract: A/R/C Associates,
                     Inc., Solicitation Number GS-04P-99-EWD-
                     0138

08/28/00   A001023   Preaward Audit of a Claim for Increased
                     Costs:   Cali-U.S.A.   Acoustics,     Inc.,
                     Subcontractor to Ray Wilson Company,
                     Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract
                     Number GS-09P-95-KTC-0012

08/28/00   A001076   Preaward Audit of Architect-Engineering
                     Services Term Contract: Price Consulting,
                     Inc., Solicitation Number GS-04P-99-EWD-
                     0138

08/31/00   A001044   Audit of Billings under Contract Number                          $137,287
                     GS06P99GZC0304: Fire Assurance, Inc.

08/31/00   A001077   Preaward Audit of Architect-Engineering
                     Services Term Contract: Conley Design
                     Group, Inc., Solicitation Number GS-04P-99-
                     EWD-0138

09/08/00   A001095   Preaward Audit of Architect and Engineering
                     Services Contract: The Architects Group,
                     Inc., Solicitation Number GS-04P-00-CXD-
                     0030

09/20/00   A001093   Preaward Audit of Architect and Engineering
                     Services Contract: Seay, Seay & Litchfield,
                     Solicitation Number GS-04P-00-CXD-0031

09/26/00   A001079   Preaward Audit of Architect and Engineering
                     Services Contract:      Lerch, Bates and
                     Associates, Incorporated, Contract No. GS-
                     07P-00-HHD-0044




                                                                        Office of Inspector General 55
                              Appendix II–Audit Report Register

                                                                                        Financial
                                                                                    Recommendations
                                                                                Funds to        Questioned
Date of        Audit                                                           Be Put To      (Unsupported)
Report         Number                    Title                                 Better Use         Costs


09/27/00       A001106         Preaward Audit of Architect-Engineering
                               Services Term Contract: Tomasino and
                               Associates, Inc., Solicitation Number GS-
                               04P-99-EWD-0138

09/27/00       A001107         Preaward Audit of Architect and
                               Engineering Services Contract: Prad
                               Group, Inc., Solicitation Number GS-04P-
                               00-CXD-0032

09/29/00       A001109         Review of Proposed Labor and Overhead
                               Rate Increases: DLR Group, Contract
                               Number GS06P93GYC0050

FSS Internal Audits
06/05/00       A000891         Advisory Review of Visa Charge Card
                               Contractor’s Difficulty Reconciling Charges
                               with Fleet Authorizations

07/26/00       A000880         Audit of Federal Supply Service’s Use of
                               Multiple Award Indefinite Delivery Indefinite
                               Quantity Contracts

09/20/00       A000851         Advisory Review on Industry Best
                               Practices for Acquisition Performance
                               Measures

09/27/00       A001048         Advisory Review of Resolution Procedures
                               for VISA Charges

09/29/00       A000976         Review of the Phoenix Fleet Management
                               Center, Federal Supply Service, Pacific
                               Rim Region

FSS Contract Audits
04/05/00       A995244         Interim Postaward Audit of Multiple Award
                               Schedule Contract: Corporate Systems
                               Centre of Torrance, Contract Number GS-
                               35F-4188D

04/13/00       A000972         Preaward Audit of Multiple Award
                               Schedule Contract:     Medical Plastics
                               Laboratory, Inc., Contract Number GS-
                               02F-9315C


56 Semiannual Report to The Congress
                     Appendix II–Audit Report Register

                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put To      (Unsupported)
Report     Number             Title                                 Better Use         Costs


04/18/00   A995254   Postaward Audit of Multiple Award Schedule                         $20,876
                     Contract: Labrepco, Inc., Contract Number
                     GS-25F-5056C for the Period April 1, 1995
                     Through March 31, 1999

04/25/00   A000975   Preaward Audit of Multiple Award Schedule
                     Contract: Day Runner, Incorporated,
                     Contract Number GS-14F-0193D

05/16/00   A000998   Limited Scope Postaward Audit of Multiple
                     Award Schedule Contract: Dionex Corpor-
                     ation, Contract Number GS-24F-2042D

05/16/00   A001007   Preaward Audit of Multiple Award Schedule
                     Contract for the Extension Period
                     February 29, 2000 Through February 28,
                     2005: Franklin Covey, Contract Number GS-
                     14F-9729C

05/16/00   A000982   Preaward Audit of Multiple Award Schedule
                     Contract: C & E Services, Inc., Solicitation
                     Number 7FXG-W7-99-6813-B

05/18/00   A001009   Limited Postaward Audit of Multiple Award                            $7,392
                     Schedule     Contract:    Day     Runner,
                     Incorporated, Contract Number GS-14F-
                     0193D

05/18/00   A42123    Postaward Audit of Multiple Award Schedule                      $1,167,028
                     Contract: Coulter Source, Inc., Contract
                     Number GS-00F-2383A

05/25/00   A000955   Limited Scope Postaward Audit: Voyager                            $687,644
                     Fleet Systems, Inc., Contract Number GS-
                     23F-98006

06/15/00   A995259   Postaward Audit of Multiple Award Schedule                      $1,628,555
                     Contract: ASAP Software Express, Inc.,
                     Contract Number GS-35F-4027D for the
                     Period April 1, 1996 Through August 31,
                     1999




                                                                         Office of Inspector General 57
                              Appendix II–Audit Report Register

                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put To      (Unsupported)
Report         Number                   Title                              Better Use         Costs


06/27/00       A000860         Interim Postaward Audit: Voyager Fleet                     $2,200,000
                               Systems, Inc.’s Compliance with Fuel Tax
                               Requirements under Contract Number GS-
                               23F-98006

06/30/00       A000873         Review of Reported Contract Sales:
                               Kimball Lodging Group, Contract Number
                               GS-00F-0062F

06/30/00       A001000         Limited Scope Postaward Audit: AOC                          $293,508
                               Solutions, Inc., Contract Number GS-23F-
                               98006

07/06/00       A001033         Preaward Audit of Multiple Award
                               Schedule Contract: Teach.com, Contract
                               Number GS-02F-9305C

07/11/00       A000999         Interim Postaward Audit of Multiple Award                    $21,058
                               Schedule Contract: Access Distributors,
                               Incorporated, Contract Number GS-21F-
                               0001H

07/12/00       A001029         Limited Postaward Audit of Multiple Award
                               Schedule Contract: Engineered Data
                               Products, Inc., Contract Number GS-29F-
                               0104G

08/25/00       A001096         Limited Scope Postaward Audit of Multiple
                               Award Schedule Contract: 3K Office
                               Furniture Distribution GmbH, Contract
                               Numbers GS-28F-0039J, -0038J and
                               -0040J

09/08/00       A21267          Postaward Audit of Multiple Award                           $711,199
                               Schedule Contract: Lanier Worldwide,
                               Incorporated, Contract Number GS-00K-
                               92-AGS-0454

09/08/00       A41229          Postaward Audit of Multiple Award                          $1,153,965
                               Schedule Contract: Lanier Worldwide,
                               Incorporated, Contract Number GS-00F-
                               91556




58 Semiannual Report to The Congress
                      Appendix II–Audit Report Register

                                                                                Financial
                                                                            Recommendations
                                                                        Funds to        Questioned
Date of    Audit                                                       Be Put To      (Unsupported)
Report     Number               Title                                  Better Use         Costs


09/08/00   A41228     Postaward Audit of Multiple Award Schedule                          $564,055
                      Contract: Lanier Worldwide, Incorporated,
                      Contract Number GS-00F-10424

09/08/00   A41208     Postaward Audit of Multiple Award Schedule                        $1,233,977
                      Contract: Lanier Worldwide, Incorporated,
                      Contract Number GS-00F-85661

09/08/00   A31242     Postaward Audit of Multiple Award Schedule                          $709,765
                      Contract: Lanier Worldwide, Incorporated,
                      Contract Number GS-00K-89-AGS-5506

09/08/00   A31231     Postaward Audit of Multiple Award Schedule                          $792,624
                      Contract: Lanier Worldwide, Incorporated,
                      Contract Number GS-00F-4433A

09/14/00   A001052    Limited Scope Postaward Audit of Multiple
                      Award Schedule Contract: Lyme Computer
                      Systems, Contract Number GS-35F-4754G

09/26/00   A001080    Preaward Audit of Multiple Award Schedule
                      Contract: West Group, Contract Number
                      GS-02F-0405D

09/28/00   A001051    Preaward Audit of Multiple Award Schedule
                      Contract: Motorola, Inc., Solicitation Number
                      FCIS-JB-980001B-03-23-98

FTS Internal Audits
07/19/00   A000879    Audit of FTS Wireless Telecommunications
                      Services Program

08/29/00   A001060    Review of Procurement Processes in the
                      Heartland Region’s FAST Program

09/11/00   A000874    Review of Smart Card Initiatives

09/18/00   A000815    Systems Audit of Integrated Task Order
                      Management System, Federal Technology
                      Service

09/19/00   A995288    Audit of Federal Technology Service’s Use of
                      Multiple Award, Indefinite Delivery Indefinite
                      Quantity Contracts



                                                                            Office of Inspector General 59
                              Appendix II–Audit Report Register

                                                                                   Financial
                                                                               Recommendations
                                                                           Funds to        Questioned
Date of        Audit                                                      Be Put To      (Unsupported)
Report         Number                   Title                             Better Use         Costs


FTS Contract Audits
05/23/00       A001002         Preaward Audit of Cost or Pricing Data:
                               Global Solutions Network, Inc., Contract
                               Number GS00T99ALD0202

07/27/00       A001043         Preaward Audit of Cost or Pricing Data:
                               Bentley, Adams, Hargett, Riley and Co.,
                               Inc., Contract Number GS00T99ALD0202

Other Internal Audits
08/02/00       A995201         PricewaterhouseCoopers LLP Manage-
                               ment Letter Fiscal Year 1999 Financial
                               Statement Audit

09/29/00       A000995         Alert Report on GSA’s Implementation of
                               the New Pegasys Financial Management
                               System

09/29/00       A000915         Review of GSA’s Critical Infrastructure
                               Protection Plan

Non-GSA Contract Audits
06/27/00       A001016         Preaward Audit of a Claim:       Master
                               Security, Inc., Contract Number GS-03P-
                               95-DWC-0035

07/13/00       A001020         Preaward Audit of Cost or Pricing Data:
                               Shell Oil Company




60 Semiannual Report to The Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.

Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
09/20/96       A61534          Preaward Audit of a Claim: Marino Construction Company, Contract Number
                               GS05P90GBC0101

11/01/96       A21882          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                               September 30, 1991

11/01/96       A31851          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02598 for the Period August 26, 1988 Through
                               March 31, 1991

11/01/96       A31865          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02046 for the Period December 4, 1987 Through
                               September 30, 1990

12/17/96       A70606          Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract
                               Number GS-00K-89AHD0007

01/10/97       A52159          Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems,
                               Inc., Contract Number GS-00K-91-AGS-5201

02/06/97       A70622          Preaward Audit of Change Order Proposal: Turner Construction Company,
                               Contract Number GS-02P-95-DTC-0014

03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

04/24/97       A71212          Preaward Audit of Cost and Pricing Proposal: The Logistics Company, Inc., Task
                               Order Request GSC-TFGE-97-2002

06/06/97       A73619          Preaward Audit of Cost or Pricing Data: Symbiont, Inc., RFP Number GSC-TFGD-
                               97-1010




                                                                                         Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


06/11/97       A61827          Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing
                               Company, Contract Number GS-07F-3956A for the Period February 1, 1992
                               Through October 31, 1995

06/16/97       A70927          Preaward Audit of Cost or Pricing Data: JIL Information Systems, Inc., Proposal
                               No. GSC-TFGD-97-1012

06/24/97       A70928          Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-FGD-
                               97-1014

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to:      Morse
                               Diesel International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

08/22/97       A70646          Preaward Audit of a Delay Claim:       Beacon/Pro Con Joint Venture, Contract
                               Number GS-02P-94-CUC-0070(N)

09/22/97       A70649          Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                               Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97       A71526          Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                               Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                               January 31, 2001

10/02/97       A72478          Audit of Claim for Increased Costs: Gonzales Construction Company, Inc.,
                               Contract Number GS-08P-95-JAC-0001

10/23/97       A70655          Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc.,Subcontractor
                               to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/23/97       A72486          Audit of Claim for Increased Costs: Mountain Gravel & Construction Co.,
                               Subcontractor to Gonzales Construction Company, Inc., Contract Number GS-8P-
                               95-JAC-0001

10/24/97       A70660          Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                               Contract Number GS-02P-94-CUC-0070(N)

62 Semiannual Report to The Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


11/12/97   A70656   Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                    Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97   A22536   Postaward Audit of Multiple Award Schedule Contract:        Ingres Corporation,
                    Contract Number GS00K89AGS5589

11/26/97   A32476   Limited Audit of Government Billings:    Ingres Corporation, Contract Number
                    GS00K89AGS5589

12/10/97   A81512   Preaward Audit of a Claim for Increased Costs: Don-Lee, Inc., Subcontractor to
                    D.L. Woods Construction Inc., Contract Number GS05P91GBC0057

12/24/97   A80602   Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80604   Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80608   Preaward Audit of a Delay Claim:      Beacon/Pro Con Joint Venture, Contract
                    Number GS-02P-94-CUC-0070(N)

02/05/98   A80609   Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                    Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                    CUC-0070(N)

02/11/98   A80607   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

03/19/98   A81515   Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                    Contract Number GS-07P-92-HUC-0017

04/13/98   A80621   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

04/20/98   A81528   Audit of Real Estate Tax Adjustments: American National Bank, Trustee, Lease
                    Number GS-05B-15448, Calendar Years 1994 Through 1996

05/27/98   A42146   Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                    Contract Number GS-00F-07010

06/08/98   A80618   Postaward Audit of Recoverable Costs: Six World Trade Center, New York, NY,
                    Lease Number GS-02B-15370

06/17/98   A82441   Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                    Contract Number GS-09P-95-KTC-0010




                                                                         Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


07/17/98       A60934          Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems,
                               Inc., Contract Number GS-00F-0002A for the Interim Period October 8, 1992
                               Through February 28, 1997

08/07/98       A21578          Postaward Audit of Multiple Award Schedule Contract: Shaw-Walker Company,
                               Contract Number GS-00F-94175

08/07/98       A10830          Postaward Audit of Multiple Award Schedule Contract: Shaw-Walker Company,
                               Contract Number GS-00F-76677

08/12/98       A82451          Preaward Audit of a Claim for Increased Costs:     Thermal Management, Inc.,
                               Contract Number GS05P95GBC0004

08/12/98       A82452          Audit of Termination Settlement Proposal: Thermal Management, Inc., Contract
                               Number GS05P95GBC0004

09/04/98       A90302          Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H

09/24/98       A80934          Preaward Audit of Multiple Award Schedule Contract: Simple Green, a Division of
                               Sunshine Makers, Inc., Solicitation Number TFTP-97-SC-7906B

09/24/98       A82456          Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                               Contract Number GS-07P-95-HUC-0068

10/13/98       A80636          Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                               Number GS-02P-96-DTC-0033

10/20/98       A80639          Postaward Audit of Multiple Award Schedule Contract:        Photon Technology
                               International, Inc., Contract Number GS-24F-1140B

10/20/98       A80649          Preaward Audit of Architect and Engineering Services Contract: Gwathmey Siegel
                               & Assoc. Architects, LLC, Solicitation Number GS-02P-98-DTC-0059(N)

10/22/98       A80935          Preaward Audit of Architect and Engineering Services Contract:     Ove Arup &
                               Partners, Contract Number GS-02P-98-DTC-0059(N)

10/27/98       A51568          Postaward Audit of Multiple Award Schedule Contract:       Liebert Corporation,
                               Contract Number GS-07F-3779A

10/27/98       A51542          Postaward Audit of Multiple Award Schedule Contract:       Liebert Corporation,
                               Contract Number GS00F06964




64 Semiannual Report to The Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


11/13/98   A82471   Preaward Audit of a Claim for Increased Costs:     Hensel Phelps Construction
                    Company, Contract Number GS-08P-96-JFC-0006

11/16/98   A80646   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

12/15/98   A82472   Preaward Audit of a Claim for Increased Costs: Trautman & Shreve, Inc.,
                    Subcontractor to Hensel Phelps Construction Company, Contract Number GS-
                    08P-96-JFC-0006

01/05/99   A95101   Preaward Audit of Claim for Increased Costs: Program and Construction
                    Management Group, Contract Number GS-11P-94MKC-0019

01/21/99   A95123   Limited Review of Claimed Incurred Costs: Linpro New York Realty, Inc., 290
                    Broadway Retail Space

01/29/99   A95106   Postaward Audit of Overhead Rate:      Turner Construction Company, Contract
                    Number GS-05P-94GBC-0051

02/05/99   A95113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                    Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/10/99   A95158   Preaward Audit of Architect and Engineering Services Contract: H + G Architects,
                    Solicitation Number GS-02P-98-PLD-0015

02/17/99   A95100   Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                    Inc., Contract Number GS-03P-96-DXC-0021

03/02/99   A95139   Preaward Audit of a Claim: Stromberg Metal Works, Inc., Subcontractor to W.M.
                    Schlosser Company, Inc., Contract Number GS-03P-92-DXC-0021

03/11/99   A95133   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                    April 1, 1999 Through September 30, 2002: IBM Corporation, Contract Number
                    GS-35F-4984H

03/19/99   A95124   Audit of Claim for Increased Costs: Dawson Building Contractors, Inc., Contract
                    Number GS-04P-95-EXC-0046

03/30/99   A95150   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                    Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                    PLD-0015(N)

03/31/99   A95120   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                    April 1, 1999 Through March 31, 2002: Government Technology Services, Inc.,
                    Contract Number GS-35F-4120D




                                                                         Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


04/02/99       A95182          Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                               Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

04/30/99       A95176          Preaward Audit of a Claim: Honeywell, Inc., Subcontractor to Reliable Contracting,
                               Inc., Contract Number GS-02P-91-CUC-0045(N)

05/05/99       A95151          Preaward Audit of Supplemental Architect and Engineering Services Contract:
                               Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

05/10/99       A95207          Audit of Recoverable Costs - FY 1997: Six World Trade Center, New York, N.Y.,
                               Lease Number GS-02B-15370

05/20/99       A95187          Preaward Audit of Sole Source Contract: Permanent Solution Industries, Inc.,
                               Solicitation Number GS-11P99ZGC0041

06/08/99       A95192          Limited Postaward Audit of Multiple Award Schedule Contract for the Period
                               April 1, 1997 Through February 28, 1999: Danka Office Imaging Company,
                               Contract Number GS-26F-1018B

06/15/99       A42113          Postaward Audit of Multiple Award Schedule Contract:         Herman Miller, Inc.,
                               Contract Number GS-00F-07000

06/15/99       A95171          Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                               EMN-1999-MO-2032 & EMN-1999-MO-2036

06/15/99       A95206          Audit of Recoverable Costs - FY 1995: Six World Trade Center, New York, N.Y.,
                               Lease Number GS-02B-15370

06/18/99       A95220          Audit of Claim for Increased Costs: PM Realty Group, Ltd., Contract Number
                               GS05P96GAC0187

06/22/99       A95164          Preaward Audit of Multiple Award Schedule Contract:          Compaq Computer
                               Corporation, Extension to Contract Number GS-35F-4544G

06/23/99       A95222          Preaward Audit of Cost or Pricing Data:      Meyer, Scherer & Rockcastle, Ltd.,
                               Solicitation Number GS06P98GZC0514

06/24/99       A95231          Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                               Contract Number GS-02P-95-DTC-0041(N)

06/25/99       A95250          Preaward Audit of Architect and Engineering Services Contract: Witsell, Evans &
                               Rasco, P.A., Solicitation Number GS-07P-99-UTC-0002

07/07/99       A95249          Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                               Number GS-02P-95-DTC-0041(N)




66 Semiannual Report to The Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


07/07/99   A95209   Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                    92CUC0029(N)

07/09/99   A95230   Preaward Audit of Claim for Increased Costs: Howard Needles Tammen &
                    Bergendoff, Contract Number GS-11P90EGC0142

07/12/99   A95247   Preaward Audit of Architect and Engineering Services Contract: RTKL Associates,
                    Inc., Solicitation Number GS-07P-99-UTC-0002

07/30/99   A95149   Audit of Incurred Costs: Northeast Utilities Service Company, Contract Numbers
                    EMN-1999-MO-2032 & EMN-1999-MO-2036

07/30/99   A95173   Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                    1999-MO-2032 & EMN-1999-MO-2036

08/12/99   A95215   Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                    & EMN-1999-MO-2036

09/02/99   A95297   Preaward Audit of Cost or Pricing Data: Woodard Contract LLC, Subcontractor to
                    Niehaus Construction, Inc./Interior Construction, Solicitation Number
                    GS06P99GZC0302

09/09/99   A95283   Preaward Review of Multiple Award Schedule Contract:          National Education
                    Training Group, Inc., Contract Number GS-02B-22885

09/15/99   A52534   Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                    Contract Number GS00K91AGS5288

09/15/99   A52565   Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                    Contract Number GS00K91AGS5288 (PS01)

09/15/99   A52566   Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                    Contract Number GS00K91AGS5288 (PS02)

09/21/99   A95316   Limited Scope Postaward Audit of Contract Billings: Stan Schwartz Associates,
                    Inc. dba Skyline Mills, Contract Number GS-03F-6018D

09/23/99   A95296   Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                    Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                    2004

09/30/99   A95285   Audit of Claim for Increased Costs: Marino Construction Company, Inc., Contract
                    Number GS05P90GBC0213, Phase III




                                                                          Office of Inspector General 67
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                                 Projected Final
Report         Number                                          Title                                  Action Date


Internal Audits
03/29/96       A42720          Audit of Accounting and Billing Controls Over the Public Buildings         11/15/01
                               Service, National Capital Region’s Reimbursable Work
                               Authorizations

12/02/96       A63019          Audit of the PAPCAP Price Adjustments                                      12/15/00

03/26/97       A61247          Review of the Public Buildings Service Debarment Program                   05/15/01

07/11/97       A60645          Audit of the Federal Protective Service’s Criminal Investigation           01/15/01
                               Program

01/30/98       A72443          Audit of the Megacenter Program, Federal Protective Service,               11/15/00
                               Public Buildings Service

03/30/98       A83007          Follow-up Review of the Contract Workload Management                       11/15/00

06/23/98       A70924          Audit of Industrial Funding Fee, Federal Supply Service, Travel            10/15/00
                               Management Center Program

09/14/98       A70642          Audit of the Federal Protective Service’s Program for Upgrading            03/15/01
                               Security at Federal Facilities

09/24/99       A83602          GSA’s Information Systems Security Has Not Kept Pace With                  12/15/00
                               Increasing Internet and Intranet Risks

09/30/98       A72705          Arthur Andersen LLP, Fiscal Year 1997 Comments and                         04/15/01
                               Suggestions for Consideration (Management letter)

12/01/98       A80321          Audit of the Availability of Federal Building Design Plans                 10/15/00

03/24/99       A995025         Audit of Security Measures for New and Renovated Federal                   08/15/01
                               Facilities

05/12/99       A83608          PBS is Faced with Critical Decisions in Assessing the Future of Its        10/15/00
                               Electronic Acquisition System

05/28/99       A83309          Audit of the Federal Supply Service’s Industrial Funding Fee for           03/15/01
                               the Schedules Program

07/15/99       A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year                  04/15/02
                               1998 Financial Statement Audit

09/07/99       A995108         Management Control Review: Public Buildings Service, Property              01/15/01
                               Management Operations and Maintenance Contracts




68 Semiannual Report to The Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit                                                                Projected Final
Report     Number                               Title                            Action Date


09/28/99   A995021   Audit of Management Controls for Non-Recurring Reimbursable      01/15/01
                     Work Authorizations

09/30/99   A995016   Security Weaknesses Place GSA’s Local Area Networks at Undue     01/15/01
                     Risk




                                                                     Office of Inspector General 69
                                 Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.
GSA Efforts to Improve Debt                               • GSA continues to improve its new Accounts
                                                            Receivable Claims System (ARCS). The use of this
Collection                                                  system improves tracking, follow-up, referral, and
During the period April 1, 2000 through September 30,       reporting of claim functions. The new ARCS is com-
2000, GSA efforts to improve debt collection and            pleting enhancements: to handle claims related to
reduce the amount of debt written off as uncollectible      the collection of past due industrial funding fees
focused on upgrading the collection function and            owed by contractors in GSA’s Multiple Award
enhancing debt management. These activities includ-         Schedule Program, to provide access via a WEB
ed the following:                                           enabled application accessible to designated GSA
                                                            locations, to improve existing reports, and to devel-
• From April 1, 2000 through September 30, 2000,            op new reports to track statistical information on
  GSA Finance Centers referred over $688,000 of             claims.
  delinquent non-Federal claims to the U.S.
  Department of the Treasury (Treasury) for cross-        • Persistent claims coordination efforts among region-
  servicing collection activities. Treasury reimbursed      al contracting officers, Finance Center personnel,
  GSA $429,731 for collections during this period.          Treasury claims offset personnel, the Office of
  FY 2000 collections on these claims exceed                Inspector General in Kansas City, and others
  $1.4 million. Administrative offsets have resulted in     continues to strengthen our claims collection efforts.
  an additional collection of $315,108. GSA also            In addition to prior initiatives, GSA is preparing a
  collects non-Federal claims using Pre-Authorized          statement of work to enter into recovery audit
  Debits (PADs). From April 1, 2000 to September 30,        contracts to collect possible contract overpayments
  2000, 13 PADs totaling $5,100 were issued.                related to non-Federal customers.




Non-Federal Accounts Receivable

                                                   As of                 As of
                                                April 1, 2000      September 30, 2000          Difference

  Total Amounts Due GSA                         $30,241,398            $22,326,869            ($7,914,529)

  Amount Delinquent                             $17,465,639            $13,504,312            ($3,961,327)

  Total Amount Written
  Off as Uncollectible
  Between 4/1/00 and
  9/30/00                                         $1,085,367




70 Semiannual Report to The Congress
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.



  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35

     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . .2, 15, 17

     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 15, 17

     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .43

     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . .2, 15, 17

     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42
     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41
     Section 5(a)(10) - Summary of Each Audit Report over 6 Months
      Old for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .70

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .61




                                                                                                                         Office of Inspector General 71
                                       Notes




72 Semiannual Report to The Congress
                           e
like
it'
                    r
                    n                  I
                                       II




It i
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Insp ctor General's Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405


U.S. General Services Administration
Office of Inspector General
